Title  : Number 10--NSF OIG Semiannual Report to the Congress
Type   : Report
NSF Org: OIG
Date   : August 29, 1995
File   : oig10





OFFICE OF INSPECTOR GENERAL



Semiannual Report to the Congress



Number 10



October 1, 1993 - March 31, 1994



NATIONAL SCIENCE FOUNDATION




LETTER TO THE NATIONAL SCIENCE BOARD
AND THE CONGRESS



This report describes our activities and accomplishments for the
first half of FY 1994.  Section 5 of the Inspector General Act of
1978, as amended, requires that the National Science Board transmit
this report to the Congress within 30 days of its receipt along
with any comments the Board may wish to make.

This reporting period marks the end of the first year of our
inspections program.  We have now completed inspections at five
institutions and are beginning to develop common findings in the
areas of financial management, administration, and achievement of
programmatic goals.  Integration of this program into the office's
existing audit, investigation, and oversight capabilities
represents a significant initiative in response to the Vice
President's National Performance Review recommendations for
Inspectors General govermentwide.

We note with sadness the death of Dr. Jerome H. Fregeau, the first
Director of OIG's predecessor organization and, for a time, Acting
Inspector General.  Dr. Fregeau began a tradition of oversight of
the Foundation's programs that emphasized integrity and an
appreciation of the importance of the partnership between the
Foundation and its funded research organizations.  These values
provided the foundation for OIG's approach to oversight of the
agency's programs.

Dr. Roland Schmitt, Chairman of the National Science Board's
Committee on Audit and Oversight, has completed the second of two
terms and so he will be leaving the Board.  Dr. Schmitt supervised
OIG during some of the years most crucial to its development.  We
will miss his insight and strong support.  We look forward to
continuing to work with the Board and the Foundation's Director to
meet the expanding challenges of this decade.


Linda G. Sundro
Inspector General
April 30, 1994




EXECUTIVE SUMMARY



FINANCIAL AUDITS

The General Accounting Office recently recommended that OIGs
provide information about their strategic plans in their Semiannual
Reports.  In July 1992, we developed a strategic plan to assist us
in using our limited audit resources more effectively.  As part of
the plan, we increased our external audits of centers and of
science and engineering education programs.  NSF estimates that
centers receive approximately $200 million a year.  At seven
centers, we identified significant compliance and internal control
issues and questioned claimed costs.  We audited 36 organizations
that were receiving educational support, questioned about $1
million in claimed costs, and identified important financial
management and internal control issues.  We also conducted several
reviews of internal NSF operations and identified $1,363,000 in
funds that could be used more efficiently.


INVESTIGATIONS

We made substantial progress on an investigation of a company that
received awards under the Small Business Innovation Research
program by submitting fraudulent information and forged documents.
As a result of our investigation, the U.S. Attorney filed a civil
complaint seeking $4.2 million in damages, and the U.S. District
Court ordered the freezing of the personal and business assets of
the owner of the Small Business Innovation Research company.

Consistent with recommendations in the Vice President's National
Performance Review, we also analyzed systemic issues that arose as
a result of our on-going investigations.  We made several
recommendations to improve NSF's administration of the Small
Business Innovation Research program by reducing vulnerability to
fraud.

We also recovered $414,856.


MISCONDUCT IN SCIENCE

We present a discussion of misconduct allegations that result from
failed collaborative relationships.  These cases usually concern
rights to intellectual property used during collaborations.  In our
review of such cases, we have made three important observations.

OIG lawyers and scientists authored an article in "The Journal of
Higher Education" that describes NSF's method for investigating
misconduct in science.


INSPECTIONS AND EVALUATIONS

We have recently completed the first year of our inspections
program.  So far, we have inspected five institutions.  In this
report, we discuss our overall findings on the institutions'
compliance and effectiveness in the areas of finance,
administration, and achievement of program goals.


PERFORMANCE MEASURE

To complement statistics required by the Inspector General Act, we
developed a new performance measure that tracks OIG recommendations
that are designed to improve the economy and efficiency of internal
NSF operations.  This new performance measure demonstrates that NSF
management has consistently agreed to resolve our systemic
recommendations in a reasonable manner.



TABLE OF CONTENTS



Audit

Investigations

Oversight

Legal

Significant Audit Recommendations
from Previous Semiannual Reports

Reports With Outstanding Management Decisions

Agency Refusal to Provide Information of Assistance

Significant Management Decisions That Were Revised

Inspector General's Disagreement
With Significant Management Decisions

List of Reports

Statistical Table of Inspector General
Issued Reports With Questioned Costs

Inspector General Reports With Recommendations
That Funds Be Put To Better Use

Additional Performance Measure



ACRONYMS


CAAS           Contracted Advisory and Assistance Services

CFO            Chief Financial Officer

CPA            Certified Public Accountant

CPO            Division of Contracts, Policy, and Oversight

DAEO           Designated Agency Ethics Official

DAS            Division of Administrative Services

DGA            Division of Grants and Agreements

DoD            Department of Defense

ECIE           Executive Committee on Integrity and Efficiency

ERC            Engineering Research Center

ETAS           Electronic Time and Attendance System

ETS            Electronic Timecard System

FDCPA          Federal Debt Collection and Procedures Act

FMFIA          Federal Managers' Financial Integrity Act

FPDS           Federal Procurement Data System

GSA            General Services Administration

HHS            Department of Health and Human Services

INT            Division of International Programs

IRM            Information and Resource Management

NASA           National Aeronautics and Space Administration

NATO           North Atlantic Treaty Organization

NSB            National Science Board

NZ             New Zealand

ODP            Ocean Drilling Program

OGC            Office of General Counsel

OGE            Office of Government Ethics

OMB            Office of Management and Budget

PCIE           President's Council on Integrity and Efficiency

PI             Principal Investigator

SBIR           Small Business Innovation Research

SBIR-II        SBIR Phase II Grant General Conditions

STC            Science and Technology Center




REPORTING REQUIREMENTS


The table cross-references the reporting requirements prescribed by
the Inspector General Act of 1978, as amended, to the specific
pages in the report where they are addressed.


Section 4(a)(2)          Review of Legislation and Regulations

Section 5(a)(1)          Significant Problems, Abuses, and
                         Deficiencies

Section 5(a)(2)          Recommendations With Respect to
                         Significant Problems, Abuses, and
                         Deficiencies

Section 5(a)(3)          Prior Significant Recommendations on
                         Which Corrective Action Has Not Been
                         Completed

Section 5(a)(4)          Matters Referred to Prosecutive
                         Authorities

Section 5(a)(5)          Summary of Instances Where Information
                         Was Refused

Section 5(a)(6)          List of Audit Reports

Section 5(a)(7)          Summary of Each Particularly Significant
                         Report

Section 5(a)(8)          Statistical Table Showing Number of
                         Reports and Dollar Value of Questioned
                         Costs

Section 5(a)(9)          Statistical Table Showing Number of
                         Reports and Dollar Value of
                         Recommendations That Funds Be Put To
                         Better Use

Section 5(a)(10)         Summary of Each Audit Issued Before This
                         Reporting Period for Which No Management
                         Decision Was Made by the End of the
                         Reporting Period

Section 5(a)(11)         Significant Revised Management Decisions

Section 5(a)(12)         Significant Management Decisions With
                         Which the Inspector General Disagrees



AUDIT


The Office of Audit is responsible for auditing grants, contracts,
and cooperative agreements funded by NSF's programs and operations
and for ensuring that financial, administrative, and programmatic
aspects of those activities are reviewed. The Office evaluates
internal controls, reviews data processing systems, and follows up
on the implementation of recommendations included in audit reports.
In addition, the Office assists in the financial, internal control,
and compliance portions of OIG inspections.

All audit reports are referred to NSF management for action or
information. The Office of Audit advises and assists NSF in
resolving audit recommendations. The Office also acts as a liaison
between NSF and audit groups from the private sector and other
federal agencies by arranging for special reviews, obtaining
information, and providing technical advice.  The Office of Audit
provides speakers and staff assistance at seminars and courses
sponsored by NSF and other federal agencies and at related
professional and scientific meetings.


STRATEGIC PLAN FOR AUDITS

The General Accounting Office recently recommended that OIGs
include in their semiannual reports information about the
implementation of, and changes to, their strategic plans.

In July 1992, we developed a strategic plan to assist us in using
our limited audit resources more effectively (see Semiannual Report
No. 7, page 2). We have devoted most of our audit resources to
reviewing those organizations that receive NSF awards. We use more
audit resources for external awards (as compared with reviews of
NSF's internal financial operations) because most of NSF's funds
are used to support science and engineering research and education.
Less than 5 percent of the agency's appropriated funds are used to
administer NSF's grants, cooperative agreements, and contracts.


*****************************************************************

GRANTS, CONTRACTS, AND COOPERATIVE AGREEMENTS

The type of funding instrument used by the government in a
particular situation--grant, cooperative agreement, or contract--
depends on the government's objective and expected level of
involvement. When a government agency wants property or services
for itself, it uses a contract to obtain them. When the government
awards an organization funds to do something for the public's
benefit and the agency expects to be substantially involved in the
recipient's performance, it uses a cooperative agreement. When the
government awards an organization funds to do something for the
public's benefit and the agency does not expect to be substantially
involved in the recipient's performance, it provides that funding
with a grant.

*****************************************************************

Most of our external audits are conducted at institutions where we
have overall audit responsibility.  Most organizations that receive
NSF funds are audited by the agency that has been assigned audit
responsibility or "cognizance," by the Office of Management and
Budget (OMB).  Consistent with recommendations from the Senate
Committee on Governmental Affairs, we do conduct selected audits of
NSF awards at universities where another agency has responsibility
for audits of universitywide systems. We select individual NSF
awards for audit based on requests from NSF management, risks that
we have identified, and the goals described in our strategic plan.
We also conduct inspections of NSF awards at universities. The
financial review component of an inspection is more limited in
scope than audits. However, auditors are responsible for the
financial, internal control, and compliance components of an
inspection. Our inspections program is described on page 33.

Our strategic plan calls for us to increase external audits of
awards in NSF's science and engineering education programs,
centers, and the Antarctic program.


SCIENCE AND ENGINEERING EDUCATION

NSF's funding for science and engineering education has increased
from $171 million in FY 1989 to $570 million in FY 1994. Funding
for these programs has increased rapidly, and many grantees that
receive support are unfamiliar with the regulations that apply to
federal grant funds. As a result, we are concerned that grantees
that receive funds under NSF's science and engineering education
programs are at greater risk of mismanaging those funds than many
large educational or research institutions that have sophisticated
financial systems and established track records working under
federal grant awards. Our initial findings indicate that these
concerns have some justification.

Many of the activities NSF funds focus on ways of increasing
interest in, and improving the understanding by students and the
general public of, science, engineering, and mathematics. OIG staff
and certified public accountants (CPAs) under contract with OIG
sampled a cross section of education programs. These programs
supported the production of educational films, teacher training,
curricula and instructional material development, the reform of
state education systems, and educational activities provided to the
public by museums.

We identified 29 organizations that received NSF education awards
for the first time. Audits of 26 of these organizations are
scheduled to be completed in the next reporting period.

Over the last 6 months, we audited three first-time recipients that
had never had their NSF awards reviewed. We also conducted 33
audits of organizations that received awards in support of science
and engineering education. These reviews were suggested by NSF
management or emerged as a result of audits conducted under OMB
Circular A-133 or our ongoing reviews of NSF's education
activities.

Audits of the 36 organizations that received educational support
resulted in about $1 million in questioned costs. We also
identified important financial management and internal control
issues common to many of these first-time grantees. Many of the
procedural deficiencies and questioned costs resulted from claimed
costs that were greater than actual expenditures; claimed costs
that had no connection with the award; expenditures that did not
have supporting documentation; indirect costs that were improperly
accounted for and allocated; and consultants, subrecipients, and
subcontractors that were not adequately supervised by the grantee.

We remain concerned about new grantees who receive education and
human resource awards. We will continue to address these concerns,
as well as issues identified by management, through audits and
increased oversight of these awards. Summaries of significant
audits that we conducted in the area of education follow.


Costs Questioned in Connection
With a Science and Math Award

NSF awarded three grants totaling $1,123,562 to a nonprofit
association physically located at a national research laboratory.
The association used the national research laboratory's facilities,
research personnel, and equipment to develop ways of enhancing
precollege science and mathematics education. The association
claimed $1,100,979, and we questioned $61,391 of direct costs
claimed under the grants and $323,944 of indirect costs claimed in
the association's indirect cost pools.

We questioned the direct costs because the grantee incorrectly
charged material and supply costs to the NSF award instead of a
Department of Energy award, did not adequately support the
consultant's rate of pay with written agreements and invoices, and
used participant support funds for other types of costs without
NSF's prior approval. We recommended that the grantee produce
documentation to support the questioned costs or refund the money
to NSF.

We questioned the indirect costs because the association charged
costs to the awards in an amount that exceeded allowed rates. In
addition, the association had not adopted the laboratory's indirect
cost rate. Instead, the association devised its own indirect cost
rate, which was based on an estimate of costs incurred by the
national research laboratory on its behalf. However, the
association did not actually reimburse the national research
laboratory for these indirect costs. We recommended that NSF
disallow all of these indirect costs.

We also noted the following compliance and internal control issues:
cash balances exceeded operating needs, documentation was not
maintained to support competitive analyses that were undertaken for
procurement actions, indirect costs were billed before the costs
were incurred, journal entries were not prepared to support the
reallocation of costs from one general ledger account to other
general ledger accounts, and bank reconciliation responsibilities
were not separated from cash disbursement and cash receipt
responsibilities.

The grantee generally agreed with our compliance and internal
control findings and recommendations.


NSF Requests an Audit of a Study
of Youths' Knowledge of Science

NSF awarded a $1,030,584, follow-on grant to a state university to
help the university continue its study of public school youths'
attitudes and knowledge about science and technology. NSF's
Division of Grants and Agreements (DGA) asked that we review
$802,245 of preaward costs for the follow-on grant because the
university believed that the costs were unfunded expenditures under
the original NSF grant. The university asserted that the NSF
program officer for the original grant encouraged the university to
incur the expenses even though the NSF grants officer did not
authorize them. NSF awarded the follow-on grant, but it withheld
$302,245 of preaward costs until we completed our review.

We recommended that NSF release $177,245 of the $302,245 held. We
questioned $125,000 because supporting activity reports for faculty
salary costs were either incomplete or not on file; consulting
costs were not supported by consultants' hours or tasks; and
foreign travel costs were not budgeted for, or approved by, NSF.

Further, we found that the university had not required advance
written authorization for travel or entered into contractual
agreements for all consultant services. NSF ultimately determined
that the NSF program officer had improperly encouraged the grantee
to incur expenses without authorization from the grants officer. We
made recommendations to address these findings and questioned
costs.


Review of Grant for the
Development of Elementary Curriculum

NSF awarded a $2,208,868 grant to a nonprofit organization to
support the development of a hands-on, elementary curriculum in
science. In response to a request from DGA, we conducted a review
to determine whether the grantee had implemented recommendations
and properly resolved questioned costs identified by CPAs in a
prior audit report. We also audited costs incurred since the prior
audit report. Our review disclosed that the organization has
continued to incur questionable costs, and  numerous compliance and
internal control problems persist.

We questioned $35,813 because the nonprofit organization used NSF
funds to reimburse NSF for costs questioned in a prior audit;
timesheets did not support claimed costs; refunds were not applied
to the grant; consultant fees exceeded amounts in the consultant
agreement; costs were charged after the award expired; claimed
costs were not supported by adequate source documentation; and
claimed costs exceeded recorded costs.

We also found that an A-133 audit had not been conducted, as
required by federal guidelines; purchase orders were not used to
acquire goods and services; responsibilities for handling cash
transactions were not adequately separated; unallowable costs were
not identified and segregated in the accounting system; and NSF was
not notified that a principal investigator (PI) who worked on the
grant resigned from his employment with the organization.

We recommended, and the organization agreed to, provide
documentation to support the questioned costs or refund NSF the
$35,813 in questioned costs, comply with federal regulations, and
strengthen its internal control policies and procedures.


******************************************************************

QUESTIONED COST

A cost resulting from an alleged violation of law, regulation, or
the terms and conditions of the grant, cooperative agreement, or
other document governing the expenditure of funds. A cost can also
be "questioned" because it is not supported by adequate
documentation or because funds have been used for a purpose that
appears to be unnecessary or unreasonable.

*****************************************************************


Audits of Education Grants
at Museums Find Weaknesses

A portion of NSF's science and engineering education funds support
informal education by generating interest and understanding of
science through museum exhibits, and community outreach programs.
They also under-write significant costs associated with storage of
the museum's exhibits. Audits of education programs at museums are
often conducted by OIG staff or CPAs under contract with NSF
because NSF is usually the cognizant organization. OMB Circular
A-133 requires that nonprofit organizations be audited by an
independent organization and that the results of those audits be
submitted to the agency that has oversight responsibility for the
organization. In this reporting period, we reviewed audit reports
from five museums that had OMB Circular A-133 single audits
performed and reports issued by the museum's independent
accountants.  The audits resulted in either questioned costs or
noncompliance findings and internal control weaknesses. Below are
summaries of three of these reports.

     NSF granted a New York museum 33 awards to support various
     projects in science education. The museum claimed $2,243,059,
     and the independent accountants questioned $111,413 because
     documents supporting claims for salaries, equipment purchases,
     and consultant services were inadequate; consultant service
     expenses exceeded allowable rates; and salary expenses were
     not properly authorized.  The museum did not provide proper
     notice that it had subcontracted for construction services and
     did not pay the required minimum wage under the subcontract.

     NSF awarded a Washington State museum four awards to support
     scientific exhibits and a science carnival. The museum claimed
     $522,357, and the accountants questioned $22,950 because the
     museum claimed costs that exceeded actual expenditures;
     claimed salary costs that were based on rates or time and
     effort reports that were not properly approved or certified;
     and improperly charged supplies, computer hardware, and
     advertising costs to grant awards.  Also, the museum did not
     prepare financial reports in a timely manner. We made
     recommendations to correct these deficiencies, but, because
     they were made at the end of this reporting period, they have
     not yet been resolved.

     NSF awarded a California museum 10 awards for activities on
     such topics as teacher institutes, cooperative research with
     Brazil, exhibit design, perception of sound, and Acquired
     Immune Deficiency Syndrome and the immune system. Accountants
     found that the museum did not keep property records on all
     equipment purchases, deposit cash advances in interest-bearing
     accounts and return the earned interest to the sponsoring
     federal agency, and limit cash requests to its immediate
     disbursement needs.  The accountants made recommendations to
     correct these findings. The recommendations should be resolved
     during the next reporting period.

We also developed findings concerning the following education
awards.

     NSF awarded two grants totaling $1,971,525 to a state
     department of education. The grants provided funds to create
     videos that would present problemsolving techniques for
     elementary school teachers, school administrators, and parents
     and develop statewide examinations and teaching materials. The
     grantee claimed $529,723 in costs, and we questioned $71,612
     because the grantee did not adhere to the indirect cost rate
     approved in the award, use the correct fringe-benefit rate for
     claiming costs, or maintain records to account for the
     grantee's cost participation. The grantee concurred with the
     questioned costs and agreed to adjust the claimed costs.

     NSF awarded a $1.5-million grant to a private, nonprofit
     corporation to make and distribute a film that shows the
     relationship between mankind and the natural world. The
     grantee claimed $281,019, and we questioned $112,324.  We
     found the following deficiencies and made recommendations to
     correct them: costs were claimed that were not actually
     incurred, overhead and fees were not approved, documentation
     to support costs claimed was insufficient, and travel costs
     were claimed that were not allowed by federal cost principles.
     The report was issued near the end of the reporting period;
     therefore, the questioned costs, findings, and recommendations
     are not yet resolved. NSF expects to resolve the outstanding
     findings and recommendations during the next reporting period.


     NSF awarded $4,251,500 of an estimated $10-million cooperative
     agreement to a private, nonprofit corporation. The 5-year
     cooperative agreement provides funding for planning,
     operating, and managing a project aimed at assisting young
     people in living and working in a changing scientific and
     technological society. The corporation claimed $1,802,685, and
     we questioned $45,010 because we found, and made
     recommendations to correct, the following deficiencies claimed
     subcontract costs exceeded actual expenses, claimed costs were
     not related to the NSF award, interest income  was claimed as
     award expenses, refunds and credits were not deducted from
     claimed costs, financial reports submitted to NSF were not
     properly prepared, and cash requests exceeded award
     disbursement needs.  At the end of the reporting period, NSF
     and the grantees were discussing the questioned costs,
     findings, and recommendations.  We expect that these concerns
     will be resolved during the next reporting period.


CENTERS


President Clinton's FY 1995 budget submission to Congress stated:
"NSF support for centers is based on the premise that some
scientific questions and research problems can best be addressed
through the multidisciplinary, long-term coordinated efforts of
many researchers on the many facets of a complex problem."  NSF
expends a significant portion of its funds on this innovative
program. NSF estimates that centers receive approximately $200
million a year, which is divided among a variety of centers,
including Science and Technology Centers (STC), Engineering
Research Centers (ERC), Long Term Ecological Research Sites,
Materials Research Centers, and Minority Research Centers of
Excellence. We are concerned that centers can pose greater
management risks than individual investigator research awards
because centers are often organized separately from university
departments; centers receive large awards from NSF, often from
$1 million to $3 million annually; and cost sharing between
industry or state and local governments and institutional
commitments are stressed in all center programs.

We conducted audits at four STCs and three ERCs. We also conducted
an inspection at an ERC.  We are using the results of these reviews
to help identify common risk factors. Based on selection criteria
that we are developing from this analysis, we will identify the
centers that we will audit over the next several years.

Our reviews of NSF centers began at the ERCs and STCs. NSF
established the ERC program in 1985 to address fundamental research
issues that are crucial to the next generation of engineering
systems and to educate engineering students using a
cross-disciplinary, team approach to problemsolving. NSF
established the STC program in 1987 to support innovative
interdisciplinary research and education and to support the
transfer of knowledge in basic science and mathematics. ERCs and
STCs are located primarily on college and university campuses
nationwide.  In FY 1993, NSF provided 18 ERCs and 25 STCs
approximately $100 million. In FY 1994, NSF will provide these
centers a projected $110 million. NSF provides funding for the ERCs
and STCs through cooperative agreements made with academic
institutions. The institution provides the rest of the funding and
is responsible for managing the center's operations.  Under these
cooperative agreements, NSF offers academic institutions an
initial, 5-year funding commitment with funding available for an
additional 6 years (for a maximum of 11 years).


Audit of Engineering
Center at NSF's Request

We audited one ERC at NSF management's request. In 1987, NSF and a
western university established an ERC to develop high-performance
computing systems. The ERC's FY 1994 budget is about $7 million,
including $1.9 million provided by NSF. NSF's Division of
Engineering Education and Centers requested that we review the
ERC's financial systems because the ERC had incurred a $1,536,829
operating deficit from FYs 1990 through 1992. We conducted this
review to determine whether the ERC's financial management system
provided accurate, current, and complete financial results of grant
activities; the causes of the operating deficits; and the manner in
which the operating deficits should be liquidated.

We found the ERC had a financial management system that could
provide accurate, current, and complete disclosure of the financial
activities under the awards. The system provided for a comparison
of budgeted versus actual grant expenditures and the source and
application of funding. Nonetheless, the center had incurred an
operating deficit largely because it did not adhere to budgets for
the various programs, financial reports did not include all ERC
funds program managers were assigned responsibility for
program and fiscal controls and the ERC operated without an
accountant for a long time.

The center has repaid $680,920 of the deficit and has formulated a
schedule for repaying the $855,909-balance over 4 years. The center
has hired an accountant and required that reports prepared for the
dean's office include all accounts. The university also drafted
policies and procedures that prohibit university officials from
charging additional costs to accounts that have deficit balances.
This control should ensure that center officials will not be able
to incur additional deficits or increase deficit balances.

During our review of the center's deficit management process, we
found additional deficiencies that the center needs to address.
Although these findings were not as serious as those that prompted
our visit, we recommended that the university identify cost sharing
in its accounting records; request audits of subgrantees and take
corrective action when necessary; and make available manuals,
guides, and training to staff members who conduct grant-related
functions.  The center generally concurred with our findings and
recommendations.


Audits at Six Centers
Identify Common Issues

We conducted audits at two other ERCs and four STCs to ensure that
they were conducting the activities defined by their cooperative
agreements. We audited about $47.9 million in costs claimed under
NSF cooperative agreements. We identified the following common
issues:

          claimed cost sharing was not supported by adequate
          documentation;

          costs claimed on Federal Cash Transactions Reports
          exceeded actual costs;

          centers were not always complying with NSF award
          documents and other federal requirements;

          indirect costs were incorrectly charged on equipment and
          participant support costs;

          salary and tuition costs were not supported by personnel
          activity reports;

          adequate support was not provided for consulting
          services, participant support, and other direct costs;
          and

          centers had not always established adequate internal
          controls.


Recommendations associated with our audits of these ERCs and STCs
will be finalized in the next reporting period. We will continue
our reviews at all centers to determine whether promised cost
sharing is being met, a system exists to account for and monitor
cost sharing, and claimed cost sharing is supported by adequate
documentation.


ANTARCTIC PROGRAM

In FY 1994, NSF will expend $195.5 million in support of the U.S.
Antarctic program ($132.9 million for research and logistic support
and $62.6 million for safety, environmental, and health
initiatives; ice breaking; airplane crews; and support provided by
the Navy).  NSF supports research in Antarctica and has overall
management responsibility for U.S. operations conducted there,
including ensuring compliance with the Antarctic Conservation Act.
Because this area of the world is so remote, it is difficult to
conduct routine audits to ensure that program objectives are met.
This lack of routine audit coverage increases the risk of financial
loss and mismanagement. Our strategic plan calls for an increase in
the number of reviews of the Antarctic program. During this
reporting period, we audited one aspect of this program.

Although NSF is responsible for the program's overall management,
it maintains contracts with several companies to help implement the
program and provide support activities. One of these contracts is
with the New Zealand airline that maintains the seven aircraft that
provide inter- and intra-continental transportation of supplies,
equipment, and personnel in Antarctica. NSF owns seven LC-130
aircraft to transport personnel and supplies for activities
conducted in Antarctica during the operational season (October
through February). These aircraft are stationed in Christchurch,
New Zealand, and provide an air link between McMurdo Station and
research points throughout Antarctica.  The aircraft are owned by
the U.S. government, flown by Navy pilots, and maintained by
mechanics employed by a New Zealand airline. We reviewed the rate
the airline proposed to charge for the mechanics for their
maintenance services. The results of that review follow.


Review of Airline's Proposed Rate
for Work on NSF's LC-130 Aircraft

In response to a request from NSF's Office of Contract, Policy, and
Oversight (CPO), we tested the airline's accounting records and
other supporting documentation to determine the reasonableness of
the airline's proposed labor rate for maintaining the aircraft.
The airline proposed to use these costs in a new, 3-year contract
beginning December 1, 1993.  A previous maintenance contract
between NSF and the airline included a fixed-price, hourly rate
that was comprised of labor costs, indirect costs, and profit.
Under that contract, NSF paid for approximately 75,000 labor hours.

The airline proposed an hourly rate of $72 New Zealand (NZ) dollars
for labor and indirect costs.  We questioned $12 NZ of the $72-NZ
rate because indirect costs and adjustments did not comply with the
Federal Acquisition Regulation and were not allocable to NSF's
aircraft maintenance.  We recommended that the contracting officer
include a $60-NZ hourly rate in the new contract.  If the
contracting officer implements this recommendation, NSF will save
over $950,000 NZ ($522,000 U.S. dollars) during the first year of
the 3-year contract.  The recommended rate was the result of our
eliminating proposed costs from the indirect cost pool and
rejecting other adjustments to the airline's proposed hourly rate.
We project that this will result in a $2,610,000 savings over the
5-year life of the contract.

While we were conducting our review, we attended contract
negotiations to provide the contracting officer with financial
advice on the airline's proposed costs.  As a result, the
contracting officer had access to immediate, on-site advice about
the airline's counterproposals during contract negotiations.  The
airline ended the on-site discussions without an agreement, but
negotiations are continuing.


OTHER AUDITS OF NSF AWARDS

In addition to the external audit activities emphasized in our
strategic plan, we audited other NSF contracts and grants.  Below
are discussions of those external audits.


Travel Services Provider Fails
to Follow Contract Requirements

NSF has a contract with a private corporation to arrange domestic
travel for NSF employees. NSF's Division of International Programs
(INT) uses a different contractor to arrange for international
travel of U.S. and foreign scientists. The contractor that provides
international travel services was awarded a 4-year, $5.8-million
contract to arrange travel, issue tickets for transportation,
provide advances for per diem expenses, obtain visas, and process
reimbursement vouchers for U.S. scientists traveling abroad and
foreign scientists traveling to the United States. The contractor
claimed $1,559,147, and we questioned $48,787. The questioned costs
resulted primarily from funds that were expended on unauthorized
or unallowable items, excess funds that were not returned by
travelers, travelers' refunded amounts that were not returned to
the NSF account, and claimed travel costs that were not supported
by source documentation.

We also found that the corporation did not comply with critical
contract provisions. For example, the corporation accepted travel
vouchers as presented by travelers without proper review of costs;
a key contract person was replaced without NSF's written approval;
and separate insured bank accounts were not established for NSF
funds. We recommended that the contractor comply with these
contract provisions. The contractor generally agreed with our
findings and recommendations.

During our audit of the contract, we found problems related to
INT's authorization of costs and the way INT administered the
contract. We questioned $4,014 in costs authorized by NSF staff.
INT authorized the contractor to provide funds for travelers'
entertainment expenses and meal allowances at local meetings. Both
of these costs are unallowable. We also found that travelers did
not always file travel vouchers because INT officials authorized
the contractor to provide participants with all of the cash
required for travel costs. We recommended that INT only authorize
allowable costs and provide cash advances that are less than the
estimated travel costs, which would help ensure that travelers file
travel vouchers to receive the balance of their travel costs.


Small Business Innovation
Research Grantee Refuses
to Provide Final Project Report

NSF awarded a $199,335 Small Business Innovation Research (SBIR)
grant to a private, for-profit business located in the northeast to
develop a suspension core drill that will maximize drilling speeds.
The grantee claimed $193,102, and we questioned $52,976 because the
grantee did not provide adequate documents to support indirect
costs. The grantee refused to provide a final project report
because NSF questioned its project performance and required that it
return $6,000, failed to obtain the funding commitment from a
private source for "Phase III" of the SBIR program, did not supply
signed W4 forms for employees working on the grant, and did not
provide a copy of Internal Revenue Form 1099 to report
miscellaneous payments.  We made recommendations to correct these
findings, but NSF is not expected to resolve these issues until the
next reporting period.



Audit of Economic Forecaster
Questions Claimed Costs

NSF awarded a grant to a for-profit company to develop various
price indexes and cost-of-living comparisons among nations,
forecasts of likely industry changes, and other economic advisory
services.


The grantee claimed $195,667, and we questioned $22,209 of direct
costs and $77,751 of fringe benefits and indirect costs claimed. We
questioned these costs because the grantee:

          included salaries claimed for the PI that exceeded the
          NSF salary ceiling,

          claimed consultant costs that were not supported by a
          written agreement or invoices describing the consultant's
          rate of pay and level of effort,

          excluded travel costs from the award budget,

          charged the grant twice for the same supplies,

          included excess sick leave in the fringe-benefit cost
          pool, and

          included excess depreciation costs in the indirect cost
          pool.

We also noted the following compliance and internal control issues:
progress reports were not submitted to NSF; accounting records did
not provide for a comparison of actual costs to budgeted amounts;
authorization, recording, and custody responsibilities for
cash disbursement were not adequately separated; written procedures
describing the processing of transactions were not maintained; and
a complete agreement with a primary consultant was not maintained.

We recommended that NSF require the grantee to provide
documentation for unsupported costs, reimburse NSF for excess and
unsupported costs, comply with federal regulations, and strengthen
its internal controls.


Audits at Hospitals Identify
Noncompliance With Federal Requirements

NSF does not support clinical research, but it does fund basic
biological research that is conducted at hospitals and in which
hospital personnel actively participate. We audit these activities
to ensure that NSF funds are being used in accordance with the
grant's conditions. In Semiannual Report No. 9 (page 14), we
discussed one hospital that claimed duplicate and unsubstantiated
costs for equipment rented and purchased with NSF funds. During
this reporting period, we found three other hospitals that had
questionable claimed costs and had not complied with certain
federal requirements. The results of these audits are discussed
below.


          NSF awarded five grants totaling $649,536 to a hospital
          and medical center to support a conference in
          neuroscience, a cooperative research project with France,
          and other research projects related to the human anatomy.
          The grantee claimed $550,427, and we questioned $8,562.
          Questioned costs related to travel, salaries claimed,
          participant support costs that were not sufficiently
          documented, unauthorized equipment purchases, and related
          indirect costs.


          NSF awarded five grants totaling $563,144 to a northeast
          hospital to support research projects. The grantee
          claimed $369,451 in costs, and we questioned $5,522.
          Questioned costs related to unauthorized travel and
          equipment purchases, duplicate charges for outside
          service costs, and incorrect indirect costs claimed.
          Cash advances were not deposited in interest-bearing
          accounts, as required by federal administrative
          standards, and the grantee could not prove that technical
          progress reports were submitted to NSF as required by the
          awards.

          NSF awarded three grants totaling $167,258 to an
          acute-care teaching hospital to support studies in human
          chromosome structure and insulin-like growth factors.
          The grantee claimed $124,146, and we questioned $1,641.
          Questioned costs were related to unauthorized equipment
          purchases and indirect costs were incorrectly claimed.
          We also found that the grantee had erroneously obtained
          a cash advance from NSF and did not deposit this advance
          in an interest-bearing account. The grantee also had not
          recorded its required cost participation on the research
          projects.




INTERNAL REVIEWS AT NSF


We conduct annual reviews of certain financial management and
internal control activities within NSF.  OMB regulations and
federal laws require that we participate with agency management in
coordinating reviews of the Chief Financial Officer's (CFO) Act,
the Federal Managers' Financial Integrity Act (FMFIA), the
Contracted Advisory and Assistance Services (CAAS), and lobbying
agreements.

We conduct these reviews to assess the adequacy of NSF's management
and to provide assistance in resolving questions that arise during
NSF's regular business activities. The results of our audits of
internal NSF operations are described below.


Chief Financial Officer's Act

In Semiannual Report No. 9 (page 9), we reported that the North
Atlantic Treaty Organization (NATO) fellowship program would be
included in the 1993 Donations Account Financial Statements. The
change occurred as the result of our FY 1991 audit, which
questioned whether the $4-million NATO fellowship program was
properly classified as a deposit fund.

We also reported that our audit of NSF's 1993 Financial Statements
were now due to OMB by March 1, 1994. The CFO Act of 1990
originally required that  NSF submit unaudited Donations Account
Financial Statements to OMB by March 31 and that OIG audit the
financial statements and issue auditor's reports to NSF's Director
by June 30.

To comply with the revised OMB timetable, the CFO submitted the
1993 Donations Account Financial Statements to us on January 10,
1994. We audited the 1993 Donations Account Financial Statements
and tested the FY 1992 information that NSF included in the FY 1993
statements for comparative purposes, even though we had already
conducted a complete audit of FY 1992 information. The 1992
information in the FY 1993 statements was amended to include the
NATO fellowship program. We also reviewed NSF's compliance with
FMFIA requirements.

Our audit identified understated donated revenues due to a transfer
of program funds to the U.S. Department of the Treasury. The CFO
amended the statements in response to our finding. On February 25,
1994, we issued unqualified opinions on the Auditor's Reports on
Principal Statements and Compliance. We issued a qualified opinion
in the Auditor's Report on Internal Controls because internal
control policies and procedures were not finalized for financial
and program performance measure reporting. We tested all of the
financial and program performance data to provide an opinion on the
accuracy of such data in the financial statements.

One of the purposes of the CFO Act is to provide accurate,
complete, and current financial information for the government to
use in financing, managing, and evaluating federal programs.  Our
financial statement audit plays a central role in providing
management, Congress, and the public with more reliable and
complete information about the effectiveness of the programs in
NSF's Donations Account.  Overall, we believe the preparation and
audit of financial statements has improved the understanding of the
Donations Account's financial condition and results.

The CFO Act requires that  NSF's financial statements encompass
only NSF's Donation Accounts, which total approximately $23
million. This amount is only a small portion of NSF's total
financial activity. We are aware that Congress is considering
modifying the CFO Act to require that NSF and other agencies
incorporate all of their funding in audited financial statements.
In addition, NSF's Deputy Chief Financial Officer has advised us
that, even if Congress does not mandate this change, NSF may
prepare financial statements for all of NSF's operations and will
likely formally request that we audit the expanded financial
statements. If this occurs, we will be required to review
expenditures totaling $3.2 billion, instead of the $23 million that
we now audit. To conduct such an audit would require substantial
additional resources, and we have begun discussions with NSF
management and the National Science Board (NSB) to determine how we
can best meet this possible, additional requirement.


Financial Statements for
the Ocean Drilling Program

The Ocean Drilling Program (ODP) is an international program that
was designed to study the movement of land masses by examining
cores of earth removed from the ocean bed. The ODP is part of the
Trust Fund and is supported by NSF and seven international partners
(Japan; Great Britain; France; Germany; a consortium of Canada and
Australia; and the European Science Foundation consortium that
comprises Belgium, Denmark, Finland, Greece, Iceland, Italy, the
Netherlands, Norway, Spain, Sweden, Switzerland, and Turkey).

An agreement between NSF and the seven partners that support the
ODP requires that  each country's contribution to the ODP and the
overall income and obligations of the Trust Fund as they relate to
the ODP be audited annually.

In 1994, we audited the participating countries' contributions and
the receipts and obligations as reflected in the Subsidiary
Financial Reports and the General Purpose Financial Statements
prepared by the Oceanographic Centers and Facilities Section,
Division of Ocean Sciences, for the fiscal year ended September 30,
1993. During that fiscal year, the participating countries
contributed approximately $16.3 million to the ODP. We found that
the statements overstated contributions by $3,257. We also found
that interest income was understated by $12,552. To promote
consistency in operations, prevent the possible reporting of
contributions that exceeded the actual amounts, and ensure that
interest income is being  correctly reported, we recommended that
an authorizing official in the Division of Ocean Sciences review
and adjust the annual status report. The report was subsequently
reviewed, and the appropriate adjustments were made.


Review of the NSF Time and
Attendance Reporting System

In 1989, NSF's Director requested that we conduct a follow-up
review of NSF's Time and Attendance Reporting System to determine
whether offices and divisions were adequately complying with time
and attendance policies and procedures, as recommended in a 1987
audit of NSF's time and attendance activities.

The follow-up review found that divisions and offices were not
adhering to time and attendance policies and procedures, and the
time and attendance system had not improved as anticipated. The
auditors recommended that flexitime records be automated.

NSF developed plans to integrate the flexitime records and the
timecard systems.  These systems were to be integrated in two
phases.  Phase 1, Electronic Time and Attendance System (ETAS), was
implemented in 1990 to record employee sign-in/sign-out times.
Phase 2 is the conversion of the HP Electronic Timecard System
(ETS) to provide the means of integrating ETAS and ETS.
As of the end of the reporting period, Phase 2 was still not
complete. Timekeepers are still laboriously transferring ETAS data
into ETS manually. Most NSF divisions authorize flexitime, which
allows employees to earn and use credit hours. Entering and
approving employee's sign-in/sign-out times is a time-consuming
process that requires that all employees who are eligible to earn
credit hours sign-in and sign-out in ETAS, timekeepers key these
times into the ETS, and, finally, supervisors approve the recorded
times. We estimate that for each NSF division to transfer all of
NSF's timekeeping data from ETAS into ETS each payroll period takes
369 hours and costs about $4,900 in salaries. If these estimates
are applied to the 26 pay periods in a year, the estimated annual
amounts increase to 9,594 hours and $127,400.

The integration of ETAS and ETS was not achieved after 4 years
because NSF deferred the funds for the integration to other
projects that it decided should be completed first. As a result,
the government paid approximately $500,000  to manually convert
data from ETAS to ETS. Continued delays in the integration of the
systems will cost the government a minimum of $125,000 per year. We
recommended that the responsible divisions increase their efforts
to ensure that no further delays are encountered in the development
and implementation of the integrated system. We estimate that NSF
will save about $900,000 and put these funds to better use once the
planned integration is complete.


*****************************************************************

FUNDS TO BE PUT TO BETTER USE

This is money OIG has identified in an audit recommendation that
could be used more efficiently by reducing outlays, deobligating
program or operational funds, avoiding unnecessary expenditures,
or taking other efficiency measures.

*****************************************************************


Review of NSF's Permanent Public
Transportation Subsidy Program

In July 1992, NSF implemented a 3-month experimental METRO subsidy
program, which provided employees at GS-10 and below with up to $21
in farecards or tokens each month to subsidize transportation
fares. In FY 1993, we reviewed the experimental program. Based on
our review, the standard operating procedures were changed to
improve control and operating efficiency.

President Clinton signed Public Law 103-172 on December 2, 1993.
This Public Law gives each agency head the authority to establish
a permanent subsidy program that encourages federal employees to
commute to work by means other than single occupancy vehicles. As
a result of this new legislation and NSF's move to Arlington,
Virginia, the Director of the Office of Information and Resource
Management (IRM) announced the implementation of a permanent Public
Transportation Subsidy Program beginning January 1994. The Division
of Administrative Services (DAS) was delegated responsibility for
administering the program and  developing policies and procedures
for the program's implementation, operation, and management.

DAS requested that we assist in the development of internal
controls relating to NSF's permanent Public Transportation Subsidy
Program. As a result of our collaboration, the standard operating
procedures relating to the control and distribution of the
subsidies were improved. We were also able to assure NSF that the
program was being implemented within the laws and regulations that
established the program.


Lobbying Restrictions

We reviewed NSF's system for receiving, reviewing, and reporting on
the implementation of section 319 of Public Law 101-121, title 31
 1352, "Limitation on Use of Appropriated Funds to Influence
Certain Federal Contracting and Financial Transactions." The Public
Law prohibits recipients of federal funds from using appropriated
funds for lobbying in connection with the contract, grant, loan, or
cooperative agreement. We found that NSF's lobbying certification
process is functioning as intended and designed.


Contracted Advisory and
Assistance Services

We reviewed the system that NSF uses to comply with Public Law
97-258, title 31  1114, "Budget Information on Consulting
Services," which requires that OIG submit to Congress each year,
with NSF's budget justification, an evaluation of NSF's progress in
establishing effective management controls. These controls should
ensure that information provided to the Federal Procurement Data
System (FPDS) on contracts for consulting services is complete and
accurate.

In FY 1993, NSF created an on-line FPDS form to generate reports
from the FPDS database. We tested the accuracy of NSF's reporting
of CAAS contracts on the FPDS forms and found that the controls in
the FPDS that were used to capture CAAS information were
reasonable.  We also found that the CAAS information reported in
the FPDS was complete and accurate.


JOINT ACTIVITIES WITH OTHER
OFFICES OF INSPECTOR GENERAL

We are often asked to participate in activities with other Offices
of Inspector General. These joint activities are designed to give
Offices of Inspector General the opportunity to share ideas and
expertise, as well as to participate in complex and broadly based
projects that may be too large and time-consuming for individual
Offices of Inspector General by distributing the projects' staffing
requirements among several agencies. The effectiveness of
interagency cooperation and collaboration among Offices of
Inspector General remains a concern.  Nonetheless, we have
continued to participate in Executive Council on Integrity and
Efficiency (ECIE) and President's Council on Integrity and
Efficiency (PCIE) projects. Two of these projects are described
below.


Computer Systems Integrity
Project Canceled

In 1986, the PCIE Computer Committee (now the Technology Committee)
initiated the Computer Systems Integrity Project. Overall project
objectives were to assess the integrity of federal computer systems
and develop recommendations for governmentwide improvements in
standards, procedures, documentation, and operations affecting
computer systems integrity. The maintenance of applications
software was selected as the topic of Task 4 because a significant
percentage of IRM funds are expended in this area.

In Semiannual Report No. 8 (page 10), we reported that we had
completed the first (survey) phase of Task 4A, which included
developing an agency IRM profile, gathering specific information
regarding agency management of the software maintenance process,
analyzing selected agency systems for application maintenance
risk based on measurable system characteristics, and writing a
report to describe NSF's management of the software maintenance
process.  Although there was general agreement that the survey
phase of this project had provided useful information, the
coordinating agency has canceled the program because of funding
constraints.


Peer Review of an
Office of Inspector General

The Inspector General Act of 1978 requires that the operations of
the offices of audit in OIGs be subject to a peer review every 3
years.  A peer review is conducted by an OIG or personnel from
several OIGs that have no reciprocal relationships with the entity
being reviewed.  OIGs do not directly exchange staff to conduct
peer reviews. Instead, assignments are made from pools composed of
staff from many OIGs to ensure that there is no appearance of
reciprocal favorable assessments. A peer review is intended to
assess compliance with legislative and professional standards for
OIG audit operations.

We have contacted the OIG that will be the subject of the review
and have held initial discussions on the procedures to be employed.
We have also sent an ECIE-approved questionnaire to be filled out
before we begin our on-site review. During the next reporting
period, we will conduct our on-site review and prepare a report
that summarizes our findings. This report will be sent to the OIG
that we reviewed and will be discussed in our next semiannual
report.


INVESTIGATIONS

The Investigations section is responsible for investigating
violations of criminal statutes or regulations involving NSF
employees, grantees, contractors, and other individuals
conducting business with NSF.  The results of these investigations
are referred to federal, state, or local authorities for criminal
or civil prosecution or to NSF's Office of the Director to initiate
administrative sanctions or penalties.


EMBEZZLEMENT OR DIVERSION OF NSF GRANT FUNDS

We place a high priority on allegations involving embezzlement,
diversion of grant or contract funds for personal use, or other
illegal use of NSF funds. Deliberate diversion of NSF funds from
their intended purpose is a criminal act that can be prosecuted
under several statutes. We encourage universities and other
grantees to notify NSF of any significant problems relating to the
misuse of NSF funds.  Early notification of significant problems
increases our ability to investigate allegations and take
corrective action to protect NSF and its grantees.




_________________________________________________________________

TABLE 1:  INVESTIGATIVE ACTIVITY


Active Cases From Prior
Reporting Periods                                 25

New Allegations                                   27

          Total Cases                             52

Cases Closed After
Preliminary Assessment                             3

Cases Closed After Inquiry/
Investigation                                     22

Total Cases Closed                                25

          Active Cases                            27

_________________________________________________________________


The following section describes cases involving the diversion of
funds that we investigated during this reporting period.


Investigations of Fraud
in SBIR Awards

In this and previous semiannual periods, we conducted several
investigations involving recipients of SBIR grants. Because 11
federal agencies have SBIR programs, and small businesses that seek
SBIR awards from one agency tend to also seek them from others, we
have coordinated these investigations with investigators from other
agencies. In this reporting period, we continued to work closely
with two U.S. Attorney's offices on investigations involving SBIR
grantees. We made substantial progress with an investigation of an
SBIR grantee that submitted fraudulent information and forged
documents to obtain SBIR funding. By providing this false
information, the grantee received, or had been selected to receive,
approximately $2.8 million in SBIR funds.

We also analyzed systemic issues that arose as a result of our
ongoing investigations involving the SBIR program.  Vice President
Gore's National Performance Review recommended that Inspectors
General use the results of investigations to "help managers
evaluate their management control systems" and make recommendations
to "help improve systems to prevent waste, fraud and abuse, and
ensure efficient, effective service." Based on the National
Performance Review, the PCIE urged all Inspectors General to
"enhance the effectiveness of investigations in facilitating
positive change" and "examine the underlying causes of fraud . . .
and recommend ways that program vulnerabilities can be reduced." As
a result of investigations of SBIR grantees, we recommended
systemic changes in NSF's administration of its SBIR program. We
also worked with NSF to ensure that its new fixed-price, Phase II
SBIR Grant General Conditions provides adequate protection for NSF
and made other, specific recommendations to prevent fraud in the
SBIR program.


Assets Frozen for Grantee
That Allegedly Defrauded NSF

We continued to lead an investigative team consisting of special
agents from NSF, the National Aeronautics and Space Administration
(NASA), and the Department of Defense (DoD). This coordinated
effort previously found evidence that the owner of a small,
high-technology business in California repeatedly submitted
duplicate proposals to, and received duplicate funding from, NSF,
NASA, and various DoD agencies without informing the agencies as
required by agency solicitations (see Semiannual Report No. 9, page
17). The company made numerous false statements to conceal the
"recycling" of 11 research ideas 40 times in duplicate submissions
to the SBIR programs of different federal agencies. In addition to
the submission of numerous false statements, the defendants billed
the government for the cost of engineering labor by two of the
three defendants, when in fact they did not perform engineering
work. The company fraudulently obtained approximately $1.4 million
in SBIR funding, and it had been selected to receive an additional
$1.4 million in federal funds. As a result of our recommendations,
NSF suspended the company from receiving new federal awards. This
action, resulted in the governmentwide suspension of awards
totaling $1,395,311.

We found evidence that the defendants were preparing to take their
assets and leave the country. The defendants put their home and
their business property on the market and began transferring large
sums of money to an overseas financial institution. We told the
U.S. Attorney's Office that the assets were likely to be moved
outside the reach of the government and that action should be taken
to protect the government's interest.  Attorneys and investigators
in our office assisted the U.S. Attorney's Office in filing a
complaint to seize assets under the 1990 Federal Debt Collection
Procedures Act (FDCPA). In one of the first FDCPA actions of its
kind nationwide, a U.S. District Court Judge ordered the U.S.
Marshall to seize the defendants' property and bank accounts to
ensure that the defendants could not dissipate their assets. The
Judge froze the assets because, in the Court's opinion, the
complaint and supporting documentation demonstrated that the
defendants were attempting to sell their properties and transfer
their money overseas to avoid paying damages. To secure the assets,
the Court imposed liens on the defendants' million-dollar house,
million-dollar commercial building, and laboratory equipment worth
about $250,000, and froze their personal and company bank accounts,
which contained over $500,000.

Under the FDCPA, defendants are informed of their right to receive
a prompt court hearing to contest the freezing of assets. They also
have the right to claim that certain types of property are exempt
from seizure. While the assets are frozen, they remain under the
control of the government, and are turned over to the government if
and when the court renders a final judgment in the government's
favor.

Based on our investigation, the U.S. Attorney also filed a civil
complaint charging the company and its owners and officers with
fraud on a federal program designed to promote scientific research.
The complaint seeks $4.2 million in damages for violations of the
False Claims Act. The defendants have not yet responded to the
civil complaint, and the U.S. Attorney's Office is  reviewing the
criminal aspects of this case.


SBIR Phase II Grant
General Conditions

NSF's funding for the SBIR program is divided into two phases. The
first phase provides a fixed amount of support for exploratory
research. If this research is successful, significant additional
funds may be provided in the program's second phase to assist in
the principal research effort. Phase I of the SBIR program involves
fixed-price awards, while Phase II awards require that the grantee
account for its costs. Recipients of Phase II grants must follow
the same accounting rules and establish accounting systems that
have been designed for large entities. These rules and systems can
impose a significant burden for a small business that receives only
one or two federal grants. To alleviate this burden, NSF decided to
make the Phase II awards fixed price as well. Applicants will be
required to document the basis for the cost and price information
they submit to NSF, but the administrative burden to account for
specific expenditures after receiving the award will be
significantly reduced.

We support NSF's efforts to alleviate the burden placed on small
business grantees.  However, we are concerned about the increased
potential for fraud that would result from decreased
accountability.  Based on insights derived from our SBIR
investigations, we held a series of meetings with NSF staff to
discuss ways of reducing the potential for fraud while alleviating
the administrative burden placed on small business grantees.  We
reviewed the draft SBIR Phase II Grant General Conditions (SBIR-II)
to ensure that NSF will receive adequate cost and pricing
information to evaluate before making the award and adequate
information to allow NSF to take action in the event a serious
problem arises after the grant has been awarded. As a result of our
discussions with CPO (the NSF office responsible for amending the
SBIR-II), the draft SBIR-II was changed to address some of our
concerns; however, some of our suggestions were not adopted.

Based in part on our discussions, CPO decided to require that SBIR
grantees provide NSF with semiannual progress reports that document
technical progress on the grant. If NSF does not find the progress
acceptable, the grant can be suspended or terminated. CPO also
agreed to ensure that SBIR grantees provide specific information on
the amount of time each PI and key employee expends and an estimate
of the amount expended on the grant as of the date of the progress
report. Payments are contingent on NSF's acceptance of the progress
reports, and the SBIR-II was amended to clarify NSF's right to
modify the payment schedule, suspend the award, or terminate it on
the basis of these reports or any other pertinent information. On
each progress report, a representative of the grantee company will
be required to certify that the PI remains primarily employed by
the grantee and that no duplicate funding for the project has been
sought or received from any other federal agency. We also arranged
a trial period with CPO in which our auditors will review every
SBIR Phase II proposal before NSF makes the grant to help ensure
the adequacy of the cost and pricing data supplied.

We recommended that the grantee be required to submit a budget with
each progress report, and that the budget be revised as necessary
to reflect any changed circumstances the grantee had become aware
of.  Alternatively, we requested that NSF staff consider
implementing a certification whereby awardees would state that the
award funds had been spent in accordance with the proposal budget.
We also suggested that NSF provide progress payments similar to
those in the FAR for fixed-price awards. A fourth alternative was
that awardees be required to report if there were material
differences in the categories of costs incurred as compared to the
proposal budget. As of the end of this reporting period, NSF staff
had not agreed to any of these recommendations, and we remain
concerned about the risk to the agency if it is not provided with
adequate financial information about how federal funds are actually
spent. Because Phase II awards are significantly larger than Phase
I awards (about $300,000 compared to about $75,000), we will ask
NSF's Director to evaluate this issue. We will closely monitor the
implementation of this new approach to funding Phase II awards, and
we will report  developments as they occur.




Systemic Recommendations

In Semiannual Report No. 9 (page 18), we recommended that an
interagency database be established for the SBIR program. Once
implemented governmentwide, this information will reduce the
likelihood of fraud of the type encountered in our investigations
of SBIR grantees. During this reporting period, the 11 federal
agencies that fund SBIR research made some progress toward the goal
of establishing such a database.

The most significant problem that we encountered in the SBIR
program, as illustrated in the case discussed above, is the
submission of duplicate proposals to various agencies and the
acceptance of duplicate funding for the same or overlapping work.
We made a number of suggestions to ensure that NSF is notified when
duplicate proposals are submitted or funded. We recommended that:

          NSF clarify and emphasize the prohibition against the
          receipt of duplicate proposals;

          proposers be required to certify clearly that the
          proposal is not duplicative;

          NSF require that proposers list and describe all of the
          Phase I and Phase II awards their company has received in
          the past 5 years; and

          NSF require that awardees submit a certification with
          each final report stating that the work  described is
          original work conducted under that particular SBIR award,
          and no overlapping financial support was received for
          this work.

We found that some SBIR awardees exaggerated the experience and
educational background of the PIs and key personnel in their
proposals, and that sometimes the prospective PI identified in the
proposal did not work on the funded project at all. We made
recommendations to help prevent these problems and to ensure that
NSF can take action when they do occur.

To ensure that PIs and company representatives are aware of their
responsibilities under SBIR awards, we recommended that, at the
time of the award, they be required to certify to NSF that no
duplicate funding has been accepted, all duplicate proposals have
been withdrawn from other agencies' consideration, and the PI is
primarily employed by the company. To ensure that NSF is aware of
changes in the status of certifications and the budget, we
recommended that NSF require that awardees certify, in semiannual
reports, the truth and accuracy of the answers to questions
regarding duplicate submissions and funding, the PI's primary
employment, and the accuracy of the current award budget.
Since these recommendations could be relevant to other SBIR
agencies, we recommended that NSF share them. We will report on
NSF's response to these recommendations in our next semiannual
report to the Congress.


OTHER DIVERSION CASES


University Employee Allegedly
Embezzles NSF Funds

An internal audit by a midwest university disclosed that a
university employee had allegedly embezzled $7,815, which included
$6,415 from six different NSF grants. The employee was the fiscal
officer for a university department that frequently paid honoraria
and expenses for visiting lecturers. The fiscal officer allegedly
forged the names of faculty members on payment requests for
fictitious international scholars then cashed the checks or
deposited them into a personal account. The fiscal officer
confessed to local law enforcement officials, who referred this
matter to the County Prosecuting Attorney. The university
reimbursed NSF $9,440, which included the $6,415 that the fiscal
officer embezzled and $3,025 of indirect costs.


Improper Salary and
Travel Charged to NSF Grant

In March 1993, we received an allegation that a PI received
duplicate salary payments from NSF and another federal agency. The
PI, a faculty member at a southern university, was allegedly paid
for full-time research during the summer of 1992 by NSF and the
other federal agency. The PI did not disclose to either NSF or the
other agency that he was receiving funding for the same time period
from another source.

An investigation by OIG and the university revealed that during the
summer of 1992 the PI was paid by both NSF and the other federal
agency for full-time effort, resulting in improper salary payments
of $9,773. We also found that the PI improperly charged travel
costs to the grant after the grant had expired. While our
investigation found no intent to defraud, the university found that
the PI's actions were inconsistent with university policy.

The PI reimbursed the university, and the university credited NSF
a total of  $15,720 for the improper salary and travel payments
plus indirect costs.


Payroll Overcharges
Made to NSF Grant

We were contacted by officials at a state science museum and center
about possible false payroll charges to an NSF grant. During an
exit interview with a museum official, a center employee allegedly
admitted to falsifying timesheets. We conducted a review with
center officials and found no evidence of fraud, but found a total
of $8,525 in payroll overcharges to the grant. Center officials
agreed to deduct this amount from their next request for NSF funds.


Follow up on Underreported
Unobligated Funds

In Semiannual Report No. 9 (page 18), we reported that an
investigation of allegations of misuse of funds at a southern
university found no evidence of criminal wrongdoing on the part of
the university's officials or employees. However, we did find that
the university underreported unobligated (residual) grant funds.
Based on our recommendation, NSF reduced the university's FY 1994
program funds, which resulted in a savings of $381,171.

The University told us it underreported unobligated grant funds
because it estimated those amounts in its proposals for follow-on
funding. However, the university never reported the accurate
amounts of unobligated funds to NSF after the amounts were
finalized. NSF's Program Office instructed the institution to
provide accurate and timely reports of unobligated funds before
each year's award is finalized. In addition, officials from NSF and
the Office of Naval Research, the other agency responsible for ship
operations, met to discuss ways in which the government could more
closely monitor the ship stabilization account's expenditures. At
that meeting, we and the Office of Naval Research decided on
specific language that will be incorporated either in the terms and
conditions of future awards or in directives from the agencies.


OTHER INVESTIGATIVE MATTERS


Conflict of Interest
Involving Former Employee

During an investigation, we identified a possible conflict of
interest involving a former NSF program officer. The former program
officer participated in the initial reviews and awards for a new
minority education program during her tenure at NSF. After her
resignation from NSF, the former program officer took a position as
acting PI at a university working on one of the programs that she
had recommended for award. The former employee became the PI for
the program, and a substitute negotiator was named for that award.

Before her departure from NSF, the former employee sought advice on
two occasions from NSF's Acting Designated Agency Ethics Official
(DAEO) regarding her acceptance of the position at the university
and continuing to work as an unpaid consultant for NSF after she
began working for the university. During these meetings, the DAEO
asked the former employee about her level of involvement with the
NSF-funded project, which was awarded to her intended future
employer.  The former employee stated that she had not been
involved with that project. Based on these meetings, the DAEO
provided general conflict-of-interest advice to the former
employee. The former employee also discussed post-employment
restrictions with another attorney from NSF's Office of General
Counsel (OGC) during an exit interview. The employee left NSF
believing that only the NSF 1-year, postemployment restriction
applied to her in future dealings with NSF.

We found no evidence that the former employee took action on the
award during her negotiations for employment with the university or
that she negotiated with NSF (or represented the university to NSF)
after becoming a university employee.  However, our review of the
NSF program jacket revealed that the employee had been involved in
the NSF-funded project--for example, she signed a recommendation
for supplemental funding for the project. When provided with a
draft of our report, the DAEO amended his position and informed the
former employee that he had concluded that a permanent,
postemployment restriction was applicable because she had been
personally and substantially involved in the initial award.

Current and former NSF employees are personally responsible for
avoiding conflicts of interest. We believe this case developed as
it did because the former NSF employee relied on her recollection
of her actions regarding the NSF-funded project without checking
the project file to see what her level of involvement with the
project actually was. We recommended that OGC ethics counsellors
take additional action in situations in which an NSF employee is
leaving  to work on an NSF-funded project. In those situations, OGC
ethics counselors should suggest that the employee review the NSF
program jacket for that project for any indications of involvement
by that employee, particularly the presence of the employee's name
and/or signature on documents in the jacket. If the employee finds
any documents that indicate the employee was involved with that
project, the employee should discuss them with the ethics
counselor.  NSF agreed to implement our recommendation.


_________________________________________________________________

Table 2

New Referrals                                               1

Referrals From Previous Reporting Period                    3

Prosecutorial Declinations                                  2

New Indictments                                             0

Indictments From Previous Period                            0

Criminal Convictions/Pleas                                  0

Civil Complaints Filed                                      1

Administrative Actions                                      3

Investigative Recoveries*                              $414,856


*Investigative Recoveries comprise civil and criminal judgments,
fines, and restitutions as well as specific costs savings for the
government.

-----------------------------------------------------------------


NSF-Sponsored Screener Terminated From
General Services Administration Program

We assisted in an investigation conducted by the Defense Criminal
Investigative Service and the General Services Administration's
(GSA) Office of Inspector General of thefts and abuses of GSA's
Utilization and Donation Program, which recycles federal equipment
and property. Under this program, GSA approves and issues Screener
Identification Cards that entitle the bearer to physically screen
and select excess property for transfer to private sector entities
for use in federally funded activities. NSF-funded research centers
are authorized to participate in the program by having the NSF
property manager submit a request to GSA for a Screener
Identification Card listing the screener's name and organization.
Because NSF submits the request to GSA, NSF sponsors the screener
and is responsible for the screener's actions. The investigation
revealed that an NSF-sponsored screener, who was a contractor for
an NSF-funded research center, attempted to remove property from a
DoD reutilization site without authorization. We did not find
evidence that the NSF-sponsored screener attempted to remove the
property for his personal benefit, but we did find evidence of
unauthorized use and abuse of screening privileges. GSA terminated
the NSF-sponsored screener's authorization and banned the
individual from the program.



THEFTS IN NSF BUILDING

Building Security--OIG Provided
Assistance and Advice

NSF's phased move from Washington, D.C., to Arlington, VA, resulted
in an increase in reported thefts in both buildings. During the
move, NSF's staff was split between two locations, and both
buildings had more contract workers and movers entering and
exiting; both sites were more vulnerable to thefts. Thefts at the
Washington, D.C., location included cash, credit cards, and an
attempted theft of a computer. Thefts at the Arlington, VA,
location were more frequent and included wallets, cash, credit
cards, an automatic teller card, small appliances, travelers
cheques,  and a passport. In December 1993, a car was stolen from
an NSF employee at the Arlington location.

At DAS' request, we provided advice and assistance about the theft
problem. DAS responded to the thefts by issuing identification
badges to all construction and contractor employees, restricting
building access, and increasing the security force at the Arlington
location. DAS also educated NSF staff about security issues through
electronic mail and classes on security precautions. By January
1994, the number of thefts reported was decreasing.

Either the Federal Protective Service or the Arlington County
Police investigated most of these thefts.  However, the
Investigations section has provided investigative assistance to
resolve several internal theft problems. Below are summaries of two
cases resolved during this period.


Theft of Travelers Cheques

On December 17, 1993, DAS notified us that American Express
Travelers Cheques being delivered to the NSF Credit Union had been
stolen.  We worked with the Arlington County Police and American
Express Security to identify suspects. Several of the stolen
cheques had been negotiated by signing initials on the cheques
instead of a full name, making it difficult to identify who
negotiated the stolen cheques. We identified an NSF contract
employee as the only individual who had the opportunity to steal
the cheques. After being confronted with the evidence against him,
the contract employee allegedly threatened several other contract
employees. The contract employee was removed and subsequently
banned from the NSF work site. After reviewing his actions, the NSF
contractor terminated the contract employee. Since the only suspect
did not reside in Arlington and no longer worked in Arlington, the
Arlington County Police decided not to pursue the matter.


Theft of NSF Mail

We were informed by the U.S. Postal Inspection Service that NSF
mail had been found dumped in a trash receptacle several miles from
NSF's  location. We found information suggesting that a contract
employee in NSF's publications processing warehouse had disposed of
more than 600 requests for publications over a period of several
weeks. We confronted the employee with evidence of his actions. The
employee resigned in lieu of termination and was barred from NSF
work sites.


OVERSIGHT


The Office of Oversight focuses on the
science-engineering-education-related aspects of NSF operations and
programs.  It oversees the operations and technical management of
approximately 200 NSF programs that received about 61,000 proposals
in FY 1993.  The Office conducts and supervises compliance,
operations, and performance audits as well as investigations of
NSF's programs and operations; undertakes inspections and
evaluations; and performs special studies. It also handles all
allegations of nonfinancial misconduct in science, engineering, and
education and is continuing studies on specific issues related to
misconduct in science.


MISCONDUCT IN SCIENCE


MISCONDUCT CASES ARISING FROM COLLABORATIVE RELATIONSHIPS

Scientists collaborate to combine their different areas of
knowledge and to enhance their individual abilities as researchers.
Most collaborations succeed, but when they fail, OIG sometimes
receives allegations of misconduct in science. Usually, these
concern rights to intellectual property used or developed during
the collaboration. In our reviews of several cases handled during
this reporting period, we made three important observations.
First, the intellectual property rights of collaborators depend on
the nature of the collaboration. At one extreme, are collaborations
where clearly separate and independent contributions are "stitched"
together. At the other extreme, are collaborations where the
individual contributions have become so "fused" that separating
them is virtually impossible. Over time, as collaborations
progress, the different contributions tend to become more
integrated.  Collaborations can break down at any stage. Depending
on how integrated the components of a collaboration are and at what
stage it breaks down, OIG has made different judgments about the
intellectual property rights of the collaborators.

Second, the unequal status of collaborators creates opportunities
for exploitation, and junior scientists who believe that they have
been exploited often raise allegations of misconduct in science.
There is much potential gain for junior scientists in collaborative
relationships, but also a danger that senior collaborators will
unfairly deprive junior colleagues of the credit due them.

Third, there is disagreement about the norms governing
collaborative relationships.  Some scientists consider actions
misconduct in science that others believe are acceptable or, at
worst, undesirable. We receive allegations of misconduct based on
different interpretations of community norms and we sometimes are
unable to do anything about undesirable practices because there is
no generally understood standard that they violate.




________________________________________________________________


TABLE 3:  MISCONDUCT CASE ACTIVITY

                                        First          Last
                                        Half           Half
                                        1994           1994


Active Cases From Prior Period          81             87

Received During Period                  31             27

Closed Out During Period                25             34

In-Process at End of Period             87             80

_________________________________________________________________




*****************************************************************

NSF's DEFINITION of MISCONDUCT in SCIENCE and ENGINEERING

Fabrication, falsification, plagiarism, or other serious deviation
from accepted practices in proposing, carrying out, or reporting
results from activities funded by NSF; or retaliation of any kind
against a person who reported or provided information about
suspected or alleged misconduct and who has not acted in bad faith

******************************************************************


The cases discussed below
illustrate these observations.


          Independent Use of Materials Generated in a Failed
Collaboration.  Two PIs agreed to collaborate on a proposal. Over
a short interval (15 days), they briefly discussed their project
and independently developed their separate sections for the
proposal; however, 1 day before the submission deadline, the second
PI broke off the relationship because of interpersonal differences.
The first PI completed the proposal, which retained the second PI's
contribution, revised the proposal to reflect the second PI's
absence, and submitted it to NSF. The second PI, who did not have
a position at her institution that permitted her to submit a
federal grant proposal, established a working relationship with a
third, more senior PI, who agreed to "front" the proposal for her.
Together, they submitted a proposal that contained the second PI's
text. Despite the fact that all three PIs were attached to the same
department, neither the first nor the second PI knew the other had
used the text in question, and neither mentioned the other's
contribution in the proposal submitted. An NSF program officer
noticed that the two proposals contained a substantial amount of
identical text, and this led to an allegation of plagiarism.

The PIs' university investigated the allegation. It found that the
materials drafted by the two ex-collaborators were easily separable
because their contributions described different fields of study.
The first and second PIs both felt they had a right to use the
material, the first PI because he had participated in their joint
discussions and had thought about the project before his contact
with the second PI, and the second because she was the author. The
university concluded that the first and second PIs had erred in
failing to inform each other of their subsequent use of the
material, but that the second PI, being the author of the common
material, had less of an obligation to her collaborator than he did
to her. While finding that both investigators, to different
degrees, had not shown sufficient regard for "professional
etiquette and collegiality," the institution did not consider their
actions to be misconduct in science.  In its evaluation, the
investigating committee cited the two PIs' inexperience and their
difficulties with English as mitigating factors.

The investigating committee said that if the institution had a
solid training and oversight program for its less experienced
investigators, this situation might have been avoided. The
institution also cautioned the third PI about assuming
responsibility for the contents of a document without having
carefully reviewed it. OIG concurred with the institution's
assessment.


          Independent Use of Collaborative Ideas after a "Fused"
Collaboration Has Concluded.   A postdoctoral researcher submitted
to another agency a proposal that she jointly developed with a
senior colleague at another institution. The two researchers
conducted their collaborative experiments at the colleague's
laboratory using materials she had brought to the collaboration.
The two did not work well together and planned to discontinue the
collaboration.  Without informing her, the senior colleague
subsequently submitted a proposal to NSF using the postdoctoral
researcher's materials and the knowledge that he had gained during
their collaboration. His submission proposed new, but related,
research and named a new collaborator. The postdoctoral researcher
alleged that this action constituted intellectual theft, since
ideas and materials she had initially brought to their
collaboration were now an integral part of his proposed independent
work.

We concluded that this was not intellectual theft because each
collaborator is entitled to use experimental samples, data, and
jointly written materials that were the products of collaborative
work in subsequent independent endeavors. We noted that, in this
case, the postdoctoral researcher's contribution was appropriately
acknowledged.  In other cases, however, where researchers have
subsequently reused collaboratively developed products, we believe
that clearer acknowledgements of these prior efforts might have
prevented allegations of misconduct from arising.


          Independent Use of Ideas After a "Stitched" Collaboration
Has Concluded.   A scientist excerpted portions of text from an
article he wrote and included them in a collaborative proposal that
he and a colleague submitted to another government agency. The
colleague then reused the text in question years later in a
proposal to NSF.  A reviewer noticed that four paragraphs of text
from the article appeared without attribution in the colleague's
NSF proposal.  Since the copied material was the original author's
own work and had subsequently not been altered by the colleague, we
concluded that it was inappropriate for the author's
ex-collaborator to reuse the material in the new proposal without
explicitly acknowledging its source. We determined that the
colleague's actions did not constitute misconduct because the
material had appeared in a proposal that was co-authored by the
colleague and the original author. We found that the colleague had
been careless in reusing the copied material without attribution to
the original source document.  We requested that he amend his NSF
proposal by including a citation to the original source.

          Acknowledging the Role of Junior-Level Collaborators.  A
senior researcher submitted a proposal containing material written
by a postdoctoral researcher working under his supervision. The
proposal named the senior researcher as the sole PI. The senior
researcher did not explicitly acknowledge the postdoctoral
researcher's contribution to the proposal, but he clearly indicated
the postdoctoral researcher as a key collaborator in the research
and included his curriculum vitae in the proposal. The senior
researcher decided that his collaborator was not sufficiently
mature as a scientist to share co-PI responsibilities.

Our informant alleged that, by failing to name the postdoctoral
researcher as a co-PI, the senior researcher had deprived the
postdoctoral researcher of credit for his contribution to the
proposal.  We concluded that a reasonable scientist reading the
proposal would expect that the postdoctoral researcher had helped
prepare it and that the senior researcher's action did not
constitute misconduct in science. But it appeared that the senior
researcher had been less than candid about the responsibilities and
status he intended to give his colleague in the project. We believe
that collaborators should, at the outset, specify the minimum
status each can expect on the project. The norms governing
allocations of PI status are sufficiently vague that, in the
absence of an explicit promise, we did not believe this was
misconduct in science. But senior scientists who encourage their
subordinates to work harder by permitting them to harbor
unrealistic hopes about future responsibilities and credit are, at
best, engaged in an ethically questionable practice that can lead
to allegations of misconduct.

Many of the situations we have encountered could have been avoided
if collaborators developed a firm understanding of their rights and
responsibilities before they began work on a project. However, in
cases where collaborators are substantially unequal in status,
explicit agreements might merely formalize unfair allocations of
credit. Collaborators do well, at the outset, to make clear their
rights to the ideas and data developed during the collaboration and
should understand that they are responsible for all aspects of the
final product, including data review, experimental design, and
written text.

During a recent inspection, we reviewed one institution's policy on
conducting research that reflects sensitivity to the ethical issues
collaborations can raise. Although we do not believe it is
essential to have written policies defining the responsibilities of
collaborators, we believe that participants would be well served if
they devoted thoughtful time to, and if institutions provided some
guidance on, some of the issues outlined above before beginning
work on a collaborative project.


Allegations Involving Data
Interpretation and Standards of Practice

We received allegations that a field geologist had fabricated field
measurements, misrepresented a locality, and had falsified data
while working under an NSF award.  Our inquiry, which included the
assistance of an outside expert, found that these allegations had
no substance.

The complainant assumed that the subject's field measurements had
been fabricated when he was unable to confirm them himself. We
determined that the complainant had searched a related nearby area,
and not the subject's actual field area.  Independent confirmation
of the subject's original field results was available. This
allegation involved differences in interpretation of the geographic
extent of a geologic structure.

It was also alleged that in a journal article, the subject had
misrepresented the significance of, and excluded a field
measurement taken at, an outcrop. We determined that the outcrop
was difficult to interpret, and at least three different
interpretations were possible including the subject's.
Consequently, his exclusion of this measurement from the data he
took in the region was within the realm of the subject's
professional judgment under the circumstances.

This case underscores that reasonable differences in interpretation
of research results are not misconduct in science issues. It also
demonstrates that in field geology, unique practices exist that,
although different from generally accepted practices of geology as
a whole, do not deviate from commonly accepted practices within a
smaller subunit of geology. NSF's regulations on misconduct in
science allow for differences in accepted practice in different
fields and subfields of science.


Accessibility of Laboratory Notebooks

We received an allegation that a biologist, who was a PI on an NSF
award at a northeastern university, had knowingly presented and
published data fabricated by his graduate student. At the
university's request, we deferred the inquiry and any possible
investigation into this allegation to it.

The committee found that the subject permitted all departing
students and researchers to take their laboratory notebooks with
them and that he had not retained copies of any of that material.
The subject stated that he felt the practice of permitting
departing personnel to take their laboratory notebooks with them
was common in the scientific community. He denied any knowledge of
data fabrication by the student.  The subject showed the committee
data from similar experiments and suggested that the questioned
data were not fabricated because analogous experiments produced
similar data. We obtained a copy of data the graduate student had
retained and sent it to the university's investigating committee
for analysis. The committee concluded that there was no evidence to
support the allegations.

We concurred with the institution's conclusion and closed this case
without a finding of misconduct. We were, however, concerned about
the institution's policy with regard to laboratory notebooks and
requested further information. The grantee institution should be
able to produce or locate research materials as part of a
misconduct inquiry or investigation. The institution reviewed its
policy and is currently establishing and promulgating a policy on
the retention of materials produced under an NSF award.


Failure to Provide Access to
Data Collected Under an NSF Award

The National Science Board has directed that scientists  share
"data, samples, physical collections and other supporting materials
created or gathered in the course of" NSF-supported research in a
timely manner. A PI on an NSF grant had taken data collected on a
grant with him when he left the institution for a nonacademic
position. A colleague made repeated requests for the data and
subsequently enlisted the aid of an NSF program officer to obtain
the data. Despite repeated promises to release the data, the PI
failed to do so.  These data were viewed by the colleague and other
members of the scientific community as historically important.

We contacted the PI several times and were assured each time that
the data would be released to the colleague.  The data were not. We
informed the PI that we would begin an investigation into the case
because he had broken many promises to share data over the years.
This behavior raised questions about the existence of the data. His
reluctance raised a concern that some of the data might have been
fabricated or falsified and that close scrutiny by other
investigators would uncover this problem.

The subject has finally sent the data to a repository where they
will be available to interested scientists. We viewed the release
of these data as an appropriate resolution of the case. We are
committed to upholding the NSB's expectation that scientists will
openly share materials and findings collected under NSF awards.


NSF Action on a Misconduct Case

In Semiannual Report No. 9 (page 26), we discussed a case in which
two PIs made false statements to NSF in grant proposals and
letters. These false statements exaggerated the extent of the
services that their college offered Native American and Hispanic
students. The first PI made the original false statements. The
second PI used the first PI's false statements as the basis for
statements in his own proposal.

We recommended that NSF's Deputy Director find that the two PIs
committed misconduct in science. We also recommended a finding of
misconduct in science against the college based on the fact that
college officials approved the proposals, and the
misrepresentations concerned matters within the college's knowledge
and control. We do not expect institutions' reviewing officials to
assess the technical content of proposals, and institutions
ordinarily bear no responsibility if a proposal contains false
statements about science or engineering.  However, we expect
institutions to take responsibility for the truth of statements in
proposals that concern matters within the institution's purview,
such as the minority programs that those institutions operate.
Therefore, we  believe the college is partly responsible for the
false statements sent to NSF.

The Deputy Director found that the PI who first produced the false
statements was guilty of misconduct. When considering what action
to take, the Deputy Director noted that the first PI "submitted
false statements to NSF in connection with three different NSF
grant proposals, clearly demonstrating a pattern of such behavior
with obvious implications for any future proposals. . . ."
Accordingly, as we recommended, for 3 years, every proposal the
first PI submits to NSF must be accompanied by a written
certification that the representations in it involving minority
programs are true.  For 3 years, the first PI will not be allowed
to act as an NSF reviewer, advisor, or consultant.

Although the Deputy Director decided that the second PI
incorporated some of the false statements from the first PI's
proposals into his own proposal, the Deputy Director concluded that
the second PI did so "apparently without realizing their
inaccuracy" and therefore his false statements to NSF were not a
serious deviation from accepted practices.  Although no finding of
misconduct was made against the second PI, the Deputy Director
cautioned him to "exercise greater care in relying on others as
sources of unpublished factual material for grant proposals."

The Deputy Director concluded that it is not unreasonable to expect
an institution reviewing grant proposals to take responsibility for
the accuracy of background information specifically within the
purview of the institution.  He agreed the college was less than
diligent in reviewing the proposals at issue and that this was a
practice he could not condone.

Based on our investigation, the Deputy Director agreed to settle
the case against the college without a finding of misconduct in
return for the college's agreement to comply with our
recommendation. Thus, for 3 years, every proposal submitted to NSF
from the college will be accompanied by a certification (sent
separately to OIG) that any representations in the proposal
involving programs for minority students are true to the best of
the signer's knowledge.


_________________________________________________________________

STAFF ACTIVITIES

Members of the scientific staff published two papers during the
reporting period.  The first appeared in Accountability in
Research:  Policies and Quality Assurance, 3 (1993), "NSF's
Approach to Misconduct in Science."  The second, "Investigating
Misconduct in Science:  The National Science Foundation Model," was
jointly written by scientists and lawyers and appeared in "The
Journal of Higher Education," 65, (1994).

The senior staff also made presentations at the annual meeting of
the Society for the Social Studies of Sciences at Purdue University
and to departmental chairs at the annual meeting of the Association
for Medical School Pharmacology.  They spoke at the American
Association for the Advancement of Science/American Bar Association
Practicum on conducting university inquiries into allegations of
misconduct in science, at a University of Maryland seminar on
Ethics in Science, and a seminar on misconduct in science at the
University of North Carolina, Chapel Hill.

_________________________________________________________________


INSPECTIONS AND EVALUATIONS


In March 1993 the PCIE issued its "Quality Standards for
Inspections" to guide the conduct of inspection work. These
standards define an inspection as a process, other than an audit or
investigation, that evaluates, reviews, studies, and/or analyzes
the programs and activities of a Department or Agency to provide
information to managers for decisionmaking; make recommendations to
improve programs, policies, or procedures; and recommend
administrative action.

We view inspections as an especially effective approach for OIG
oversight in our agency because of the highly technical nature of
NSF's mission. Our inspections are on-site reviews both within NSF
itself and at institutions that receive NSF funding. OIG staff
assesses organizations' compliance and effectiveness in three major
areas: finance, administration, and achievement of science and
engineering program goals in research and education. Our
inspections supplement OIG's ongoing audit and investigative
activities by broadening accountability beyond financial and
administrative compliance requirements to assess the responsiveness
of research and education activities to program goals. Our
external, on-site reviews also promote an increased awareness by
PIs and their sponsoring institutions of the importance of
accountability in the management of, and performance under, NSF
awards. In all inspections, we act as an unbiased conduit for PIs'
and university officials' comments, criticisms, and suggestions on
NSF's operations.

The composition of any inspection team depends on the expertise
required to understand the research or activity to be inspected.
Team members may include scientists and engineers, auditors,
computer specialists, investigators, lawyers, or management/program
analysts. If the expertise is not represented by OIG staff,
consultants from the private sector or other federal agencies may
be used. Evaluation of the inspected institution's policies and
procedures, award documentation, and related financial records is
performed both before  and during the inspection.



The following three sections
make up an inspection report.

Financial Review

Our objectives here are to evaluate the adequacy of internal
controls for NSF awards within the department or other
institutional subunit and to assess compliance with the
institution's financial policies and procedures established to meet
federal law and regulations.

Management and Administrative Review

The objectives of this portion of the inspection are to evaluate
the institution's ability to resolve allegations of misconduct in
science and to determine the adequacy of the institution's handling
of misconduct allegations; assess the institution's compliance with
regulatory requirements, such as drug-free workplace, lobbying
certification and reporting, and nondiscrimination; assess the
climate for advancement by women and racial minorities as
scientists and faculty members; and learn about and evaluate any
institutional requirements governing employees' financial
disclosures.

Program and Research Review

The objectives of this portion of the inspection are to assess the
scientific aspects of the projects funded under the awards
reviewed, evaluate the adequacy of the facilities and other
institutional support for these efforts, determine the PIs' views
on issues related to the NSF awards covered by the inspection, and
develop an understanding of the PIs' impressions of the quality and
adequacy of NSF's proposal review and award processes including NSF
program officials' interactions with PIs.


Problem Areas From
Our Five Inspections

We have now conducted five inspections, and several common concerns
have emerged. All five inspections raised questions related to the
institution's procedures for handling allegations of misconduct in
science. At two institutions, clarifications or changes would be
necessary to ensure complete compliance with NSF's regulation on
Misconduct in Science and Engineering. At these two institutions,
we are concerned about the school's understanding of NSF's
definition of an inquiry, the necessity of conducting an
investigation when an inquiry shows it is warranted, and the
standard of proof required in adjudicating misconduct.

Also at issue were the institution's responsibilities for
maintaining access to data and records of data generated under
federal awards. None of the five institutions had written policies
on access and retention of data recorded in notebooks or elsewhere.
A policy of this kind is particularly helpful when a PI leaves the
institution.

In four of the five inspections, although we found the internal
control structure was generally satisfactory and the finance
departments complied with NSF's award documents, the Grant Policy
Manual, the Grant General Conditions, and other federal
requirements, we did make recommendations regarding internal
controls and compliance. To three of the five institutions, we
recommended establishment and use of separate expenditure accounts
to ensure that cost sharing is traceable in the official books of
account and to support fully other contributions reported to NSF.
We also recommended that two of the five institutions ensure that
the personnel activity reports reflect an after-the-fact
confirmation of effort for individuals working on federal awards.
At two institutions, we noted failure to have final technical
reports sent to NSF within 90 days of the award's expiration date.
We encouraged two institutions to increase their efforts to recruit
and retain minority and female faculty and students.


Three Most Recent Inspections

We assessed compliance and performance based on  NSF's awards to
PIs in two major chemistry departments and at one ERC. In
conducting our reviews, we interviewed university staff members and
students and reviewed documents.

          Inspection at a Midwestern University. In a chemistry
department at a midwestern, state university, our inspection was
based on 21 awards: 11 research instrumentation awards and 10
awards to support the research of 6 faculty members. We found no
major deficiencies.  We found that the department's internal
control structure was generally satisfactory and complied in all
material respects with the award requirements. However, we noted
two final project reports were overdue and recommended that this
deficiency be corrected. We also recommended that the institution
use separate expenditure accounts to ensure that cost sharing is
traceable in the official books of account, and that personal
activity reports reflect an after-the-fact confirmation of effort.

Except for four clarifications on the university's procedures for
dealing with misconduct in scholarly research, we found the
university adequately complied with applicable regulations on
misconduct in science, drug-free workplace, lobbying, and
nondiscrimination.

We also confirmed that "significant, fundamental research that
fully integrates graduate, undergraduate and postdoctoral
education" was being conducted under each PI's NSF awards. We
concluded that the departmental infrastructure of research
facilities and equipment, along with the PIs' cohesive research
groups, constituted an environment that maximized productivity
under NSF's awards. We recommended that the university develop a
written policy on access to, and retention of, data obtained under
federal awards, particularly to cover the case of a PI who leaves
the university.

We observed that the program officers in NSF's chemistry division
had an inadequate travel budget for site visits necessary for
effective program management, and we recommended reconsideration of
the NSF policy to limit program officers' travel funds.

Since this inspection took place early in the reporting period, we
were able to summarize the institution's response to our
recommendations.


          The University disagreed with some of the recommendations
          from our financial review, but agreed to strengthen its
          efforts to ensure compliance with those recommendations
          that it did agree with.

          The University acknowledged that its procedures for
          handling misconduct in scholarly research need to be
          reviewed and revised.

          The University intends to produce a formal, written
          policy about the ownership of data and notebooks, but not
          within the recommended 90-day period.


          Inspection at an ERC.  We conducted an inspection at one
of NSF's 18 engineering research centers, which has received
approximately $20 million of funding through cooperative
agreements. We found the Center's internal controls and compliance
with applicable regulations generally satisfactory. We recommended
that the Center establish a procedure to approve costs when they
exceed original budgeted amounts, develop procedures to ensure that
personnel activity reports reflect an after-the-fact confirmation
of effort for individuals working on federal awards, and develop
separate expenditure accounts to ensure that cost sharing is
traceable in the official books of account and that the books fully
support other contributions reported to NSF.

We recommended that the College of Engineering consider more formal
mechanisms to train graduate students in the ethics of research and
become more familiar with relevant University policies. Also, we
recommended that the University examine its "Policy and Procedures
on Academic Integrity in Research and Publication" to ensure that
its procedures are consistent with the NSF regulation on Misconduct
in Science and Engineering.

We recommended that NSF clarify for faculty affiliated with NSF
Centers its policy regarding their right to submit individual grant
proposals and that it consider measures to emphasize to proposal
reviewers the importance of not using for their own benefit the
contents of proposals sent to them for review and the importance of
not sharing those proposals with their students without NSF's prior
agreement. In this same connection, we recommended that the Center
emphasize to its faculty the importance of seeking the prior
agreement of the NSF program officer before sharing review copies
of proposals with their students. We  recommended that NSF either
enforce or rescind its requirement that publications and invention
disclosures resulting from NSF awards be sent promptly to NSF. We
recommended that the University address faculty concern for
improved assistance in the patenting and commercializing of
inventions resulting from research performed at the University. We
recommended that the Center develop and publish a policy stating
its minimal requirements for the storage and retention of research
data.

          Inspection at a Southeastern University.  Our third
inspection occurred at a major chemistry department in a
southeastern university and was based on 18 awards totaling
$3,626,010. These awards consisted of 5 research instrumentation
awards and a variety of 13 other research-related awards to 6 PIs.
In contrast to several other inspections, we found the university's
financial system for handling cost sharing and the personnel
activity reporting system to be notably good. The University
adequately complied with applicable regulations, disclosure
requirements, and restrictions identified as the objectives of our
management and administrative review.   We did recommend that the
University's Policy and Procedures on Ethics in Research be
clarified with respect to the standard of evidence, which applies
to the University's adjudications of allegations of misconduct in
science and how such a standard relates to NSF's standard. We
observed that each PI's research is being conducted within a
strongly supportive departmental infrastructure and within a
cohesive research group and concluded that NSF-supported research
was being carried out under conditions that maximized research and
education productivity. We did recommend that the University issue
a written data access and retention policy.


Followup on Previously Reported Inspection of a Plant Biology
Department at a Private, Nonprofit Research Institution

In Semiannual Report No. 9 (page 32), we reported on our inspection
of a Plant Biology Department at a private, nonprofit research
foundation where we reviewed performance and compliance under a
total of eight NSF grants. We identified weaknesses in the
Institution's policies and procedures in the area of charging and
controlling costs on federal projects. We were concerned that
department staff scientists and laboratory personnel were unaware
of the content of the institution's "Policy on the Conduct of
Research" and were also unaware of NSF's misconduct in science and
engineering regulation. In our view, the Institution's informal
knowledge of the location of notebooks developed under NSF awards
was not adequate to ensure that the Institution would be able to
meet federal requirements for access to records pertinent to a
grant.  As a result of recommendations made in this report, the
Institution agreed to:

          Review its policy on fringe benefits to determine how to
          proceed with any rate adjustment.

          Implement a formal system to track cost sharing.

          Consider improvements in departmental tracking and
          reporting of leave, ensure that airline travel on foreign
          carriers is properly justified, and consider developing
          an institutionwide procurement policy. The Institution is
          examining payment approval mechanisms to help strengthen
          internal controls. The Institution is improving the
          management of its financial database, which should help
          prevent spending under expired grants.

          Distribute a copy of its "Policy on the Conduct of
          Research" to new employees and discuss the policy with
          them.

          Issue a Policy on Maintenance and Accessibility of
          Research Data.

In addition, NSF's Directorate for Biological Sciences, which
awarded the grants in our inspection:

          re-evaluated its policy of prohibiting simultaneous
          reviews of research proposals submitted to NSF and other
          federal agencies;

          determined that, despite objections to this policy by
          some investigators, the policy was effective in
          clarifying the focus of the Foundation's role in federal
          support for biological research; and

          stated that it was the Directorate for Biological
          Science's view that the policy has not been in place long
          enough to allow a clear evaluation of its overall
          effects, either positive or negative, and that the policy
          should remain in place for the duration of the 3-year
          experiment.



EVALUATION OF INTERNAL NSF OPERATIONS

In addition to conducting inspections at organizations that receive
NSF funding, we periodically evaluate internal NSF operations and
make recommendations to improve the economy and efficiency of NSF's
management of its programs.  In this reporting period, we conducted
a thorough review of the SBIR program as an extension of findings
we developed through our investigations.  In addition, in this
reporting period, NSF took steps to implement several
recommendations from program evaluations that we previously
conducted.  The actions taken by NSF concerning these program
evaluations are described below.


Follow-Up on Cost Sharing

As described in Semiannual Report No. 8 (page 31), we conducted a
review of the adequacy of the rules and procedures that NSF applies
to cost sharing by NSF grantees.  Some grantees failed to ensure
that they met the level of cost sharing promised, and some
grantees failed to maintain adequate records on cost sharing.  We
recommended that NSF make cost-sharing requirements more explicit.
In this reporting period, NSF:

          began developing language to revise the Proposal and
          Award manual to require that program staff consider cost
          sharing when reviewing proposed program announcements,

          revised the Grant Proposal Guide to clarify cost-sharing
          requirements and ensure that they are clearly specified
          in the proposal budget,

          revised the Grant General Conditions to clarify cost-
          sharing requirements for awards with cost sharing in
          excess of the 1-percent minimum, and

          required that grantees who have committed to large
          amounts of cost sharing certify annually the amounts of
          costs shared.


NSFNET


In Semiannual Report No. 8 (page 27), we discussed our review of
the NSFNET program.  NSFNET, NSF's national computer network,
provides the backbone of the National Research and Education
Network program.  This network is a state-of-the-art, high-speed
information superhighway and is an important part of the
President's initiative to promote technological development in the
United States.  NSFNET interconnects the NSF supercomputer centers
with regional, government, and international networks, thus
enabling researchers, educators, and students to communicate with
each other electronically.

Although we were generally impressed with the program, we made a
number of recommendations to correct deficiencies and strengthen
the program as a whole.  During this reporting period, NSF
incorporated the acceptable use policy into the current award,
thereby enhancing the agency's ability to ensure that commercial
use of NSFNET does not impair use of the network for research and
education activities.  NSF has also authorized awards for a new
architecture including a very high-speed Backbone Network Service,
and extended the current award for 18 months to provide for a
smooth transition to the next step in the evolution of NSFNET.  NSF
has committed to implementing additional recommendations in the
future.


Enhancement of NSF Computer
Database Software to Facilitate
Checking for Debarred Principal Investigators

In Semiannual Report No. 5 (page 38), we reported that, in response
to our recommendation, NSF had begun manually checking every new PI
against the debarment list published by GSA.  This system will
ensure that NSF does not actually award any grants to a PI who is
debarred, but it would not enable NSF to avoid the wasted effort of
processing and evaluating proposals from such individuals.  In
discussions with NSF staff at that time, we also suggested that NSF
modify the computer software used with its database of individuals
who had been listed as PIs on NSF proposals, so that PIs who had
been suspended or debarred will be "flagged" in such a way that NSF
can avoid processing their proposals.  The database software is now
being revised to include a flag feature; however, there are still
problems in the program that prevent its use at this time.  NSF is
working with the developer of the software to ensure that the flag
will alert staff before proposal processing begins.


LEGAL


OIG attorneys provide legal advice on all OIG activities,
including investigations, audits, and oversight of NSF's functions
and programs.  OIG attorneys supported many of the activities that
are described in other sections of this report.

Under section 4(A)(2) of the Inspector General Act, OIG is
required to review and make recommendations concerning legislation
and regulations that affect NSF and NSF-funded activities.  OIG
attorneys are responsible for conducting these reviews, as well as
general oversight of NSF's legal activities.


Article on Investigating
Misconduct in Science

An article written by OIG legal and scientific staff and NSF's
former general counsel, entitled, "Investigating Misconduct in
Science:  The National Science Foundation Model, was published in
the May/June issue of The Journal of Higher Education."  The
article presents the foundation for NSF's misconduct procedures,
which are derived from traditional American methods of
investigation and adjudication that were developed for other kinds
of cases where individuals are accused of serious wrongdoing.  NSF
adapted this approach to misconduct cases using an appropriate
blend of scientific, investigative, and legal expertise.  An
important aspect of NSF's approach is that the investigation is
kept separate from the adjudication, with scientists leading both
processes.  When these traditional procedures are applied in the
scientific context, they help protect the rights of involved
parties and to resolve cases efficiently, confidentially, and
fairly.

The article compares NSF's methods with other commonly used methods
of handling misconduct in science, which often rely on the use of
panels of scientists that both investigate and adjudicate.  These
panels meet, gather information by interviewing witnesses and
considering other evidence, and reach a conclusion as to whether
the subject was guilty of misconduct.  Institutions may be inclined
to use panels because they are familiar with this approach in the
peer review of grant proposals and the assessment of tenure
qualifications.  However, when the proceedings can lead to
sanctions, the merging of investigative and adjudicatory functions
impairs the efficiency and fairness of both functions.  If due
process protections, such as the right to cross-examine witnesses,
are introduced at the investigative stage, efficiency suffers.
But, if they are denied during proceedings that determine whether
misconduct occurred, the accused scientist may feel that he has not
had a fair chance to defend himself.  Moreover, the assembly of a
panel and the questioning of witnesses increases the chance for a
breach of confidentiality.  This is particularly unfair during the
investigation, when there is not yetþand may never beþa finding of
misconduct.

By contrast, when NSF applies the traditional American
investigatory model, it employs mechanisms designed to promote
efficiency, confidentiality, and fairness.  In NSF's OIG,
misconduct investigations that are not deferred to awardee
institutions are carried out by scientists or engineers heading an
interdisciplinary team that includes lawyers and specially trained
investigators.  An OIG investigatory team has the flexibility to
question witnesses at separate times and places, as
confidentiality, efficiency, and the proximity of evidence dictate.

The investigation conducted by an OIG team is nonadversarial in
that it is designed to elicit information, rather than reach a
conclusion as to whether misconduct was committed.  OIG's
investigation report only states whether there is a convincing case
for misconduct. It does not make a final determination of
misconduct on behalf of NSF.

An NSF determination of misconduct takes place in an adjudication
by NSF's Deputy Director, who considers the report's
recommendations and decides whether misconduct has occurred and
whether to impose sanctions.  It is at this stage, when the
possibility of sanctions is considered, that the accused scientist
receives all due process protections.  The subject is entitled to
submit evidence, call and confront witnesses, and be represented by
counsel.  Thus, the overall NSF procedure is fair to the scientist
without hampering the evidence-gathering process and with reduced
risk to confidentiality.

Moreover, NSF's procedures promote fairness in another way.  NSF
assigns the investigation to one set of people and the adjudication
to another.  This separation of functions, by vesting
responsibility for different phases of a case in different
individuals, provides checks and balances analogous to the
separation of powers in government.  Independent assessment by
scientific peers at both the investigation and adjudication phases
allow two evaluations of what constitutes misconduct and ensures
that the bounds of misconduct in science are only as broad as the
scientific community generally accepts.

Many universities and other federal agencies are reconsidering the
procedures they use in handling misconduct in science cases.  The
article suggests that they  consider adopting procedures based on
established methods of investigation and adjudication.  If the
traditional American model of investigation is applied effectively,
misconduct in science cases can be resolved fairly and accurately,
in a timely fashion, and without great expense.


OTHER LEGAL ISSUES


          Access to Grant Records. The NSF Grant General Conditions
state that grantees are responsible for the work conducted under
their grants; require that grantees provide annual progress reports
and a final report of the work performed under their grants;
require that grantees retain all records pertinent to their grants
for 3 years after work on the grant is complete; and require that
grantees provide NSF access to all the grantees' pertinent records.
We recommended that NSF ensure that it continues to have clear
access to all grant records under the current Grant General
Conditions. If NSF concludes that there are any ambiguities in
NSF's right of access to pertinent records, we recommended that NSF
act promptly to ensure that it has such access. NSF's Director
accepted both recommendations.

          Public Identification by HHS of Individuals Found to have
Committed Misconduct in Science.  As discussed in Semiannual Report
No. 9 (page 38), the Department of Health and Human Services (HHS)
began publicly disseminating the identities of persons that it
found had committed misconduct in science in June 1993.  We
mentioned two issues for NSF that arose from HHS's action.  (1)
What, if anything, should NSF do if an individual who applies to
NSF for an award has been found by HHS to have committed misconduct
in science but against whom HHS did not apply a governmentwide
sanction? and (2) Should NSF actively disseminate the identities of
individuals that NSF finds to have committed misconduct in science?
In this reporting period, NSF's Director consulted with NSF's OGC
concerning these issues, but the Director has not yet responded to
our queries.

          Integrity of Peer Review.  In Semiannual Report No. 9
(page 39), we discussed our determination that the information
provided to peer reviewers was insufficient to convey the
importance of NSF's policy on the confidentiality of peer review.
We recommended that NSF ensure that all reviewers are more clearly
informed, in writing, of all of the requirements of its policy
regarding the integrity of the confidential peer review process and
inform reviewers of the possible consequences of violating that
policy.  In this reporting period, NSF stated generally that it
shares our concerns and will take steps to address them, but it has
not yet specified what actions it will take.


STATUTORY AND REGULATORY ISSUES

          Guidance Requested From the General Accounting Office on
Use of Appropriated Funds to Support Annual Awards Dinner. In 1976,
Congress directed NSF to establish an award to honor young
scientists whose work has shown exceptional promise. Traditionally,
the NSB has honored the recipients of this, and other NSF awards,
at a dinner that is held each May. In many years, NSF has used
appropriated funds to cover some of the expenses associated with
this dinner.

In 1993, we reviewed the accounts that support expenditures for the
awards dinner (see Semiannual Report No. 8, page 10). As a result
of that review, we recommended that NSF either seek specific
authority from Congress to use appropriated funds to pay for the
dinner or obtain an opinion from the Comptroller General on whether
the use of appropriated funds for this dinner is permissible. In
January 1994, NSF's Acting General Counsel wrote to the Comptroller
General requesting approval for the use of appropriated funds for
this purpose. The Inspector General also wrote to the Comptroller
General providing factual information about the use of appropriated
funds for past dinners and requesting detailed guidance on the
permissible use of appropriated funds for several categories of
dinner expenses.

As of March 1994, NSF had not received detailed, written guidance
on this issue from the General Accounting Office.

          Agency Systems of Records.  In Semiannual Report No. 9
(page 41), we discussed two Privacy Act systems of records
maintained by NSF for which the appropriate notice had not been
published in the Federal Register pursuant to the Act's
requirements. We recommended that NSF publish the appropriate
notices for these systems. In this reporting period, both notices
were formally published in the Federal Register.

          Program Fraud Civil Remedies Act.  In our second and
fourth semiannual reports (pages 24 and 42), we explained that NSF
is not covered by the Program Fraud Civil Remedies Act because the
Act authorizes only a government "authority" to bring an action,
and "designated federal entities," such as NSF are not included in
the Act's definition of "authority." We recommended that Congress
amend the Act to enable NSF to use its provisions.  In subsequent
semiannual reports, we discussed a draft amendment to the Act that
would include NSF as an "authority," which NSF had drafted and
which had been cleared by OMB.  In this reporting period, NSF
forwarded the proposed amendment to Congress, and we are hopeful
that it will be attached to suitable legislation.

          Touhy Regulation.  In Semiannual Report No. 9 (page 41),
we discussed our recommendation that NSF adopt a regulation to
establish procedures for NSF's response to subpoenas or other
demands for current and former NSF employees to testify about, or
produce records concerning, NSF matters in the course of private
litigation or other proceedings to which the federal government is
not a party. The regulation would prevent current and former NSF
employees from complying with such demands without the permission
of the Director or the Director's delegate (or, in the case of OIG
employees, the Inspector General or the Inspector General's
delegate). NSF is currently considering a draft of this regulation.



CONFLICTS ISSUES


Progress on Financial
Disclosure Policy for PIs

In Semiannual Report No. 8 (page 33), we discussed a revised system
for identifying potential conflicts of interest on the part of PIs
who apply for NSF grants.  The revised policy would require that
investigators' financial interests be disclosed to universities
rather than NSF, provided the PI certified on each proposal that
all financial interests had been disclosed to the university and
that the university certified that the disclosed financial interest
had been reviewed and any conflicts of interest resolved.  In
Semiannual Report No. 9 (page 41), we reported that this rule had
been forwarded to OMB and the Office of Science and Technology
Policy for comment and clearance, and that OMB and the Office of
Science and Technology Policy were working with NSF and the
National Institutes of Health, which had been developing its own
policy on investigator conflicts to establish consistent policies.
In this reporting period, NSF and the  National Institutes of
Health made considerable progress in developing consistent
policies, and we expect the few remaining differences to be
resolved soon.


Progress on NSF's Supplemental
Conflict-of-Interest Rules

In Semiannual Report No. 5 (page 38), we discussed our concern that
the Office of Government Ethics' (OGE) new uniform standards of
ethical conduct for executive branch employees might supersede
certain of NSF's standards that were well-tailored to NSF.  For
example, many NSF program officers work at NSF only 1 or 2 years
while on leave from permanent teaching and research positions at
their universities; the OGE standards would supersede NSF's "1-year
rule," which prohibits NSF employees from representing themselves
or others before NSF for a 1-year period after they leave NSF.
Since the OGE standards were finalized in 1992, NSF has been
working with OGE to craft a supplemental regulation that will
continue these appropriate NSF-only requirements.  We are
encouraged with the progress that has been made and are hopeful
that the supplemental NSF regulation will be promulgated soon.



SIGNIFICANT AUDIT RECOMMENDATIONS
FROM PREVIOUS SEMIANNUAL REPORTS

We are responsible for reporting to Congress and following up on
the resolution of audit recommendations.  From October 1, 1993,
through March 31, 1994, we have resolved 10 reports with
significant audit recommendations.  These reports were noted in
Semiannual Report Nos. 8 and 9.


SBIR Grantee Claims
Excess Indirect Costs

Period First Reported: October 1, 1992 - March 31, 1993

NSF awarded a $230,306  grant to an organization to support a
process of growing crystal fibers.  We questioned $21,200 because
claimed indirect costs exceeded allowable indirect costs, claimed
costs exceeded recorded costs, and a grant charge was made without
a supporting invoice.  CPO finalized the indirect cost rates for
the award period and disallowed $8,688 of the questioned costs.
CPO required that the grantee adjust its records.


Association Lacks
Adequate Records

Period First Reported: October 1, 1992  - March 31, 1993

NSF awarded an education association seven grants, totaling
$1,585,701, to create instructional programs for math teachers.  We
questioned $180,449 because salaries and fringe benefits were not
supported by time and attendance records; consulting charges were
not supported by written agreements or invoices for services
rendered; source documentation was not maintained for direct costs;
and the rates used to claim indirect costs exceeded final indirect
costs rates.  We recommended that the grantee require that written
consulting agreements be submitted to support consulting charges.
CPO requested that NSF's program office review the project's
accomplishments to determine whether the value was received for the
undocumented expenditures.  The program office determined that
value was received for approximately $135,000 of the questioned
costs, and CPO disallowed $45,192.  Unclaimed expenditures of
$30,000 were used to offset the disallowed costs, and the grantee
paid $15,192.


Nonprofit's Accounting
System was Inadequate

Period First Reported: October 1, 1992 - March 31,1993

NSF awarded two grants, totaling $150,000, to a nonprofit
organization to support publication of annual directories of
scientific training programs.  We questioned $4,070.  Both NSF
grants had been charged to the same account.  As a result, we could
not identify which costs were applicable to each award, reconcile
the amount reported on the Federal Cash Transactions Report with
the account ledgers, or determine the exact amount of income
applicable to each award.  We recommended that the grantee account
for the costs by grant, establish records that compare budgeted
amounts for the grants with the amounts actually spent, and support
payroll expenses with personnel activity reports or an alternative
system.  The entire $4,070 was disallowed.  CPO conducted a site
visit and found that significant self-funded expenditures could be
used to offset the disallowed costs.


Nonprofit Organization
has Questioned Costs

Period First Reported: April 1, 1993 - September 30, 1993

NSF awarded a $407,206 grant to a nonprofit organization to develop
and implement a curriculum and professional development model to
upgrade the Cleveland public schools' seventh and eighth grade
mathematics curriculums.  The grantee claimed $358,617, and we
questioned $197,293.  We recommended that the grantee develop
accounting policies and procedures and develop controls within its
financial management system.

During the resolution process, $6,354 of the questioned costs were
disallowed with the remaining costs accepted after the program
office determined that the expenditures were in line with the
accomplishments under the project.


Small Business Innovation Research
Company Claims Unauthorized and Excessive Costs

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded a $224,137 grant to a for-profit organization to
support the research and development of a set of statistical
procedures.  The grantee claimed $224,137, and we questioned
$11,288.  The questioned costs resulted from unapproved salaries
charged to the award, unauthorized travel expenses, and salaries
paid that exceeded the allowable rate.

NSF's program office determined that the salaries and travel costs
were appropriate for the activity supported.  Based on that
determination, no costs were disallowed.


For-Profit Corporation Fails
to Support Claimed Costs

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded a $248,239 grant to a for-profit corporation to fund
research in fruit maturation and ripening.  The grantee claimed
$83,122, and we questioned $44,932.  Questioned costs related to
unsupported salary and fringe-benefit costs, the purchase of
equipment that was not a budget line item, and indirect costs
claimed that exceeded the allowable amount.

The grantee provided documentation to support all but $10,394 of
the questioned costs.  These unsupported costs were disallowed.


Not-For-Profit Does Not Remit
Interest Earned on Advance Funds

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded five grants, totaling $309,576, to a not-for-profit
organization to support research facilities and programs.  The
grantee claimed $309,104, and we questioned $15,495.  Questioned
costs resulted from insufficient documentation to support costs
claimed, unallowable costs, and interest earned on advance funds
that were not remitted to the government.  We also found that final
progress reports were not promptly submitted to NSF.  Accounting
functions were not segregated, and procedures for awarding
contracts totaling $10,000 or more were not maintained.

NSF disallowed $8,494 of the questioned costs, of which $5,498 was
offset against unclaimed costs, and the grantee will pay the
government the remaining $2,996.


Commercial Company has Significant
Amounts of Unsupported Costs

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded a $450,780 grant to a commercial company to support
production of the first "IMAX" film to survey the universe.  The
grantee claimed $88,459, and we questioned $80,591.  Questioned
costs related to salary expenses that were not supported by
time/attendance or activity reports and unsupported subcontract
costs.

The grantee provided information on which NSF's program office
based a determination that accomplishments were worth $50,000 of
the questioned costs.  The remaining $30,000 was accepted when the
grantee showed that although "a less than arms length" transaction
occurred, the service was provided at a lower cost than would have
been provided by three independent proposals.


Nonprofit Organization
Claimed Unsupported Costs

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded a $392,820 grant to a nonprofit organization to support
the production of an educational film.  The organization claimed
$186,490, and we questioned $55,319.  Consulting costs were not
supported by written agreements, and inadequate invoices and labor
costs were mistakenly charged to the grant.  Cash advances were not
deposited into an interest-bearing account, and documentation was
not maintained to show how exchange rates were used to translate
foreign expenditures.

NSF disallowed $11,115 of the questioned costs.  The remaining
costs were accepted based on a determination by the program office
that services had been received and the costs were necessary.


University Indirect
Cost Rates Reviewed

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded an $18 million, 5-year contract with the University of
Alaska, Fairbanks, to operate the Polar Ice Coring Office (PICO).
PICO plans and organizes ice core drilling projects in the world's
polar and high-altitude regions.  The University and NSF
established a rate to more accurately allocate indirect costs to
the PICO contract.  This rate was different than the rate
negotiated by the cognizant federal agency, the Office of Naval
Research.  We reviewed both indirect cost rates to determine which
rate was more equitable to NSF.  We estimated that if the
University receives the follow-on contract with the current
indirect cost rate, $687,500 in excess indirect costs will be
charged to the new contract.

As a result of our recommendation to eliminate the excess indirect
costs, the University submitted a revised indirect cost proposal.
The contracting officer accepted the newly proposed rate for
contract negotiations.  Then, ONR provided a separate rate for the
PICO resulting in savings of over $463,000 over the life of the
contract.



REPORTS WITH OUTSTANDING
MANAGEMENT DECISIONS


This section identifies audit recommendations described in previous
semiannual reports where corrective action has not been completed
by management.  CPO is tasked with making management's decision
concerning external audit reports.  During this reporting period,
CPO resolved 28 reports that were described in previous semiannual
reports.

******************************************************************

Management Decision:  Management's evaluation of audit findings
and recommendations and issuance of a final decision concerning
management's response to such findings and recommendations.

******************************************************************



Report                                            Date Report
Number              Title                         Issued


Reports with questioned costs:

91-1038             Prism Productions              12/21/90


93-1050             Museum of Science
                    and Industry                   06/08/93

93-1054             Society of Hispanic
                    Professional Engineering
                    Foundation                     08/17/93

93-1058             Maurer Engineering,Inc.        09/29/93

93-1060             Antarctic Support Associates   09/30/93

93-1061             Vanderbilt University          09/30/93

93-1065             Catholic University
                    of America                     09/30/93

93-1066             American University            09/30/93

93-1067             Cerro Tololo Inter-American
                    Observatory                    09/30/93



Commercial Firm Earns
Interest on NSF Funds

Period First Reported: October 1, 1990 - March 31, 1991

NSF awarded two grants totaling $2,225,496 to a privately owned,
for-profit corporation that provides technical and scientific
information to commercial television stations.  The corporation
claimed $2,113,620, and we questioned $410,338.

The questioned costs resulted from unsupported salary costs being
charged to the grant, invoices supporting expenditures not being
available, and indirect costs being charged at a rate higher than
the actual or maximum provisional rate.  We recommended an
additional $21,175 of interest earned on NSF advances be returned
to NSF.

During this reporting period, NSF received an offer from the
company to settle the questioned costs for approximately $83,000.
NSF made an offer which the grantee has rejected.  At the end of
the reporting period, NSF was determining its next action.


Museum of Science and Industry

Period First Reported: April 1, 1993 - September 30, 1993

NSF awarded over $1.3 million to a not-for-profit museum to support
construction of a new exhibit.  The award was made with the
expectation that the grantee would cost share approximately $3.7
million of the project's total costs.  We found that there was a
significant gap between the funding received and the funding the
project needed.  The grantee claimed $150,777 against the NSF
award, and we questioned $29,389.  We also found that excessive
indirect costs were provided under the award.  We recommended that
the museum conduct an audit in accordance with federal guidelines,
ensure that cash on-hand not exceed the project's operating needs,
and establish records that compare budgeted amounts with actual
outlays.

The grantee responded to the NSF questioned cost letter, but firmly
disagreed with the proposed handling of the questioned costs in the
indirect cost pool.  Resolution is pending negotiations of final
indirect cost rates.


Professional Foundation
Lacks Documentation

Period First Reported: April 1, 1993 - September 30, 1993

NSF awarded two grants, totaling $312,612, to a nonprofit
corporation to support the development and enhancement of the
mathematic and scientific skills of precollege Hispanic students.
We questioned $33,596 because salaries, materials, and supplies
were not supported by adequate documentation, and claimed costs
exceeded recorded costs.  We also found that the grantee did not
maintain an approved indirect cost allocation plan.

NSF has offered to resolve the questioned costs based on
information provided by the grantee.  The grantee must present this
offer to its board of directors before resolution can occur.
Resolution is expected during the next reporting period.


SBIR Grantee Claims
Excess Indirect Costs

Period First Reported:  April 1, 1993 - September 30, 1993

NSF awarded a $224,107 grant to an engineering company to support
the study of  special drilling equipment for unusually deep earth
coring applications.  We  questioned $1,149 because claimed
indirect costs exceeded allowable amounts in the grant agreement.
An additional $35,677 of claimed indirect costs were classified as
suspended costs pending receipt and acceptance by NSF of indirect
cost rate data from the grantee.

These issues will be resolved when final indirect cost rates for
the 2 years covered by the audit are available.  Resolution is
expected to be complete before September 30, 1994.


Antarctic Program

Period First Reported: April 1, 1993 - September 30, 1993

NSF awarded a 6.5-year cost-plus-award-fee contract to Antarctic
Support Associates (ASA) to fund research activities and operations
as well as to maintain facilities and equipment at sites in
Antarctica.  ASA claimed expenditures of approximately $169
million.  We questioned $652,352 because inadequate, and in some
cases no, documentation was provided to support claimed costs
related to equipment, travel, and other services; reimbursement for
travel in personal automobiles was not always justified;
documentation was not maintained that justified the use of
foreign-flag air carriers; and payment made by ASA for services
rendered by its two parent companies was not supported by adequate
documentation or a contractual agreement to be used to determine
reasonableness of the billed costs.

We also noted the following compliance and internal control
deficiencies:  NSF was not notified before changes totaling
$148,000 were made on a subcontract; formal policies and procedures
related to the use of foreign-flag air carriers and cash draw downs
were not developed; and appropriate approval was not obtained to
change the level of liability insurance.

The contractor has provided NSF with extensive documentation as a
result of NSF's resolution activities.  That documentation is under
review, we expect to resolve these issues before September 30,
1994.


Vanderbilt University

Period First Reported:  April 1, 1993 - September 30, 1993

NSF's Division of Physics awarded Vanderbilt University five
grants, totaling $2,028,300.  The University claimed $1,933,467,
and we questioned $82,507.  Questioned costs resulted from
personnel activity reports that were incomplete; costs that were
incurred before the effective dates of the preaward periods; travel
costs were not supported; and indirect costs that were incorrectly
charged against equipment.  Our review of internal controls and
compliance issues disclosed that cost and price analyses were not
always documented, property records were incomplete, and a system
was not maintained to monitor cost sharing.

NSF is reviewing the university's response to the questioned costs.
Resolution is expected during the next reporting period.


Catholic University

Period First Reported:  April 1, 1993 - September 30, 1993

NSF's Division of Physics awarded Catholic University four grants,
totaling over $1.6 million.  The University claimed $1,499,353, and
we questioned $41,244 because salaries were not supported by
personnel activity reports; expenditures were not supported by
documentation; tuition was charged when graduate students were not
working on the awards; and indirect costs were incorrectly charged
against equipment and tuition.  Our review of internal controls and
compliance issues disclosed that equipment was not tagged, physical
inventories were not performed, and a system was not maintained to
monitor cost sharing.

The university has provided its response to NSF.  The report is
expected to be resolved within the next reporting period.


American University

Period First Reported:  April 1, 1993 - September 30, 1993

NSF's Division of Physics awarded American University four grants,
totaling $2,629,736.  The University claimed $2,037,474, and we
questioned $543,755 because salaries, wages, and tuition costs were
not supported by personnel activity reports and participant support
costs were not tracked in the University's accounting system.  Our
review of internal controls and compliance issues disclosed that
there was no written documentation to support price and cost
analyses, including competition for purchases of $10,000 or more,
or sole source vendor selection.

NSF is reviewing the university's response to its proposed
resolution.  A portion of the response was provided to NSF's
program office for review and evaluation.  The audit is expected to
be resolved during the next reporting period.


Cerro Tololo Inter-American Observatory

Period First Reported: April 1, 1993 - September 30, 1993

NSF awarded a 5-year, $158,543,300 cooperative agreement to the
Association of Universities for Research in Astronomy (AURA), in
support of the National Optical Astronomy Observatories.  The Cerro
Tololo Inter-American Observatory (CTIO), located in La Serena,
Chile, is one of three observing sites that make up the National
Optical Astronomy Observatories.  We reviewed CTIO operations and
about $3.7 million in  costs claimed under the cooperative
agreement.  We found questionable costs and made recommendations to
decrease operational costs and improve the administrative support
of CTIO, which would result in a saving of $48,000 to NSF.

These savings would result from more accurate revenue forecasts,
and the allocation of indirect costs to an automobile rental
business operated by the contractor on CTIO's facilities.  Other
recommendations included lowering the $257,000 average balance of
NSF cash held in the contractor's Chilean bank account, seeking
more competition, and reconciling property and financial records.

The NSF resolution official has conducted a site visit and held
discussions with the AURA management.  Further discussions with
AURA and OIG are expected with resolution anticipated during the
third quarter of calendar year 1994.



Agency Refusal To Provide
Information Or Assistance


During this reporting period, there were no reports made to the
National Science Board of instances where information or
assistance, requested under section 5(a)(5) of the Inspector
General Act of 1978, as amended, was unreasonably refused or not
provided.



Significant Management
Decisions That Were Revised


No significant management decisions were revised during the
reporting period.



Inspector General's Disagreement
With Significant Management Decisions



The Inspector General has no disagreement with significant
management decisions made during this reporting period.



LIST OF
REPORTS



We issued the following audit reports and, where applicable, the
total dollar value of questioned costs (including a separate
category for the dollar value of unsupported costs) is listed for
each report.



NSF and CPA Performed Audits



                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


94-1001   Center for
          American
          Archeology     11/02/93            9,155             134

94-1002   Top-Vu
          Technology,
          Inc.           11/04/93           41,427          41,339

94-1003   Microfab
          Technologies,
          Inc.           11/04/93           14,695               0

94-1004   Council State
          Science
          Supervisors    11/19/93           98,308          97,013

94-1005   Good Samaritan
          Hospital
          & Medical
          Center         12/01/93            8,562           8,562

94-1006   Energy
          Concepts
          Company        01/10/94           56,770               0

94-1007   McLean
          Hospital       01/10/94            5,630               0

94-1008   Air New
          Zealand        01/26/94          522,871               0

94-1009   Network
          Dynamics
          Inc.           02/01/94           15,596               0

94-1010   Engineering
          Data
          Management,
          Inc.           02/05/94            45,081          1,719

94-1011   Acadia
          Institute      02/05/94             4,028          2,705

94-1012   Rhode Island
          Hospital       02/05/94             1,831          1,483

94-1013   Friends of
          Fermilab
          Association    02/10/94            61,391              0

94-1014   Science
          Research
          Lab, Inc.      02/18/94                 0              0

94-1015   Advanced
          Surface
          Technology,
          Inc.           02/18/94             9,826              0

94-1016   ENZON, Inc.    02/18/94                 0              0

94-1017   American
          Express
          Travel Related
          Services       03/14/94            48,787         34,508

94-1018   Maine
          Mathematics
          and Science
          Alliance       03/14/94            45,010              0


94-1019   DRACO
          Technologies   03/14/94            52,976         52,976

94-1020   NY State
          Education
          Department     03/14/94            71,612              0

94-1021   Life Lab
          Science
          Program,
          Inc.           03/23/94            35,670              0

94-1022   Joel Popkin
          & Co.          03/23/94            22,193         15,620

94-1023   Optoelectronic Computing
          Systems Center --
          Univ. of
          Colorado       03/31/94                 0              0

94-1024   The Museum
          Film Network   03/31/94           112,324         15,214




INTERNAL AUDITS



                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs



94-2101   Chief Financial
          Officer
          Act Audit      02/25/94                0               0

94-2102   Review of Contracted
          Advisory &
          Assistance
          Services       03/14/94                0               0

94-2103   Review of NSF's
          Electronic Time
          and Attendance
          System         03/14/94                0               0

94-2104   Ocean Drilling
          Project - Financial
          Statements
          Audit          03/30/94                0               0

94-2105   International
          Phase of
          Ocean Drilling
          Project - Financial
          Statement
          Audit          03/30/94                0               0

94-2106   American
          Express        03/31/94                0               0

94-2107   Public
          Transportation
          Subsidy
          Program        03/31/94                0               0

94-2108   Review of
          Lobbying
          Restrictions   03/31/94                0               0





NSF COGNIZANT AUDITS



                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


94-4001   American
          Statistical
          Association    10/21/93                0               0

94-4002   Biological
          Sciences
          Curriculum
          Study          11/15/93                0               0

94-4003   Center for
          American
          Archeology     11/15/93                0               0

94-4004   National Bureau
          of Economic
          Research       11/19/93                0               0

94-4005   PATHS/PRISM    12/01/93                0               0

94-4006   Illinois State
          Museum Society 12/01/93                0               0

94-4007   Monterey Bay
          Aquarium Research
          Institute
          (MBARI)        12/01/93                0               0

94-4008   Sea Education
          Association    12/01/93                0               0

94-4009   Discovery
          Place,
          Inc. (NC)      02/01/94                0               0

94-4010   National Action
          Council for
          Minorities in
          Engineering
          (NACME)        02/01/94                0               0

94-4011   Law & Society
          Association
          ('92)          02/01/94                0               0

94-4012   Marie Selby
          Botanical
          Gardens        02/01/94                0               0

94-4013   Law & Society
          Association
          ('93)          02/05/94                0               0

94-4014   Exploratorium  02/18/94                0               0

94-4015   San Diego
          Society for
          Natural
          History        02/18/94                0               0

94-4016   Maine Audubon
          Society        02/18/94                0               0

94-4017   The Bakken     02/18/94                0               0

94-4018   American Museum
          of Natural
          History        02/10/94          111,413         111,413

94-4019   Santa Barbara
          Museum of
          Natural
          History        02/18/94                0               0

94-4020   Houston
          Museum of
          Natural
          History        02/18/94                0               0

94-4021   American
          Political
          Science
          Association    02/22/94                0               0

94-4022   Massachusetts
          Microelectronics
          Center         02/22/94                0               0

94-4023   National Council
          of Teachers
          of Math        02/22/94           23,984          23,984

94-4024   Association of
          Universities
          for Research
          in Astronomy
          (AURA)         02/22/94                0               0

94-4025   Education and
          Resources
          Group          02/22/94                0               0

94-4026   Technical
          Education
          Research
          Center         02/22/94                0               0

94-4027   Student Pugwash
          USA            03/14/94                0               0

94-4028   Brookings
          Institution    03/14/94                0               0

94-4029   Minnesota Private
          College Research
          Foundation     03/14/94                0               0

94-4030   California Universities
          for Research in
          Earthquake
          Engineering    03/14/94                0               0

94-4031   Marine Science
          Consortium
          ('91)          03/14/94                0               0

94-4032   Marine Science
          Consortium
          ('92)          03/14/94                0               0

94-4033   Society for
          the History
          of Technology  03/14/94                0               0

94-4034   American
          Geological
          Institute      03/14/94                0               0

94-4035   Corporation for
          National Research
          Initiatives    03/14/94                0               0

94-4036   American Indian
          Science &
          Engineering
          Society        03/14/94                0               0

94-4037   American
          Geophysical
          Union          03/14/94                0               0

94-4038   American
          Society of
          Mechanical
          Engineers      03/14/94                0               0

94-4039   Paths/Prisms   03/14/94                0               0

94-4040   Nebraska Independent
          College
          Foundation     03/14/94                0               0

94-4041   MSRI-Mathematical
          Sciences Research
          Institution    03/14/94                0               0

94-4042   American Association
          of Community
          and Junior
          Colleges       03/14/94                0               0

94-4043   American Bar
          Foundation     03/14/94                0               0

94-4044   Association of
          Science-
          Technology
          Centers        03/15/94              781             781

94-4045   Joint
          Oceanographic
          Institution    03/15/94                0               0

94-4046   National
          Association
          of Biology
          Teachers       03/15/94                0               0

94-4047   University
          Corporation
          for Atmospheric
          Research
          (UCAR)         03/15/94                0               0

94-4048   Association of
          American
          Geographers    03/15/94            1,689               0

94-4049   Ventures In
          Education
          ('93)          03/16/94                0               0

94-4050   Ventures In
          Education
          ('92)          03/16/94                0               0

94-4051   Pacific Science
          Center
          Foundation     03/21/94           22,950          21,047




OTHER FEDERAL AUDITS



                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


94-5001   Johns Hopkins
          University     11/01/93                0               0

94-5002   Michigan
          Technological
          University     11/01/93                0               0

94-5003   Pennsylvania
          State
          University     11/01/93                0               0

94-5004   California
          Institute
          of Technology  11/01/93                0               0

94-5005   Massachusetts
          Institute of
          Technology     11/01/93                0               0

94-5006   Stanford
          University     11/01/93                0               0

94-5007   Stanford
          University     11/01/93                0               0

94-5008   Stanford
          University     11/01/93                0               0

94-5009   Stanford
          University     11/01/93                0               0

94-5010   Stanford
          University     11/01/93                0               0

94-5011   Stanford
          University     11/01/93                0               0

94-5012   American
          Institutes
          for Research
          (AIR)          11/01/93                0               0

94-5013   California
          Institute
          of Technology  11/01/93                0               0

94-5014   California
          Institute
          of Technology  11/01/93                0               0

94-5015   University of
          Rhode Island   11/01/93                0               0

94-5016   University of
          Rhode Island   11/01/93                0               0

94-5017   University of
          Rhode Island   11/01/93                0               0

94-5018   San Francisco
          State
          University
          Foundation     11/01/93            1,748               0

94-5019   Stanford
          University     11/01/93                0               0

94-5020   State of
          North Carolina 11/01/93                0               0

94-5021   Loma Linda
          University     11/01/93                0               0

94-5022   Christian
          Brothers
          College        11/01/93                0               0

94-5023   University of
          Rochester      11/01/93                0               0

94-5024   Pennsylvania
          State
          University     11/01/93            2,278               0

94-5025   Wayne State
          College        11/01/93                0               0

94-5026   SETI
          Institute      11/01/93                0               0

94-5027   Far West Laboratory
          for Educational
          Research and
          Development    11/01/93                0               0


94-5028   College of
          St.
          Scholastica    11/01/93                0               0

94-5029   State of
          Texas          11/01/93                0               0

94-5030   University of Medicine
          & Dentistry of
          New Jersey     11/01/93                0               0

94-5031   University of
          the South      11/01/93                0               0

94-5032   State of
          Maryland       11/01/93                0               0

94-5033   Livingston
          University     11/01/93                0               0

94-5034   Seattle
          University     11/01/93                0               0

94-5035   Aerodyne Research,
          Inc.           11/01/93                0               0

94-5036   Boise State
          University     11/01/93                0               0

94-5037   University
          of Miami       11/01/93                0               0

94-5038   Rowan-Cabarrus
          Community
          College        11/01/93                0               0

94-5039   Loyola Marymount
          University     11/01/93                0               0

94-5040   Calhoun State
          Community
          College        11/01/93                0               0

94-5041   Westmont
          College        11/01/93                0               0

94-5042   Agnes Scott
          College        11/01/93                0               0

94-5043   Stanford
          University     11/01/93                0               0

94-5044   University of
          Maryland
          System         11/02/93                0               0

94-5045   Stanford
          University     11/01/93                0               0

94-5046   Teikyo Marycrest
          University     11/01/93                0               0

94-5047   Brown
          University     11/01/93                0               0

94-5048   Pennsylvania State
          University     11/01/93            1,223               0

94-5049   Computer Sciences
          Corporation    11/01/93                0               0

94-5050   Computer Sciences
          Corporation    11/01/93                0               0

94-5051   Polytechnic
          University     11/01/93                0               0

94-5052   Carroll
          College        11/01/93                0               0

94-5053   University of
          Arkansas
          Medical
          Sciences       11/01/93                0               0

94-5054   Computer Sciences
          Corporation    11/01/93                0               0

94-5055   Computer Sciences
          Corporation    11/01/93                0               0

94-5056   Computer Sciences
          Corporation    11/01/93                0               0

94-5057   Computer Sciences
          Corporation    11/01/93                0               0

94-5058   Computer Sciences
          Corporation    11/01/93                0               0

94-5059   Computer Sciences
          Corporation    11/01/93                0               0

94-5060   Computer Sciences
          Corporation    11/01/93                0               0

94-5061   Computer Sciences
          Corporation    11/01/93                0               0

94-5062   Computer Sciences
          Corporation    11/01/93                0               0

94-5063   Santa Fe
          Community
          College        11/01/93                0               0

94-5064   Temple
          University     11/01/93                0               0

94-5065   SUNY Research
          Foundation     11/01/93                0               0

94-5066   Rand
          Corporation    11/01/93                0               0

94-5067   California
          Institute
          of Technology  11/01/93                0               0

94-5068   Beloit College 11/01/93                0               0

94-5069   California State
          University
          San Bernardino
          Foundation     11/01/93                0               0

94-5070   Failure Analysis
          Associates,
          Inc.           11/01/93                0               0

94-5071   Wofford
          College        11/01/93                0               0

94-5072   Foster-Miller
          Inc.           11/01/93                0               0

94-5073   Stanford
          University     11/01/93                0               0

94-5074   Miami-Dade
          Community
          College        11/01/93                0               0

94-5075   Carnegie Mellon
          University & Software
          Engineering
          Institute      11/01/93                0               0

94-5076   Columbia
          University     11/01/93                0               0

94-5077   Aerodyne Research,
          Inc.           11/01/93                0               0

94-5078   Aerodyne Research,
          Inc.           11/01/93                0               0

94-5079   University of
          Rhode Island   11/01/93                0               0

94-5080   Pennsylvania
          State
          University     11/01/93                0               0

94-5081   Pennsylvania
          State
          University     11/01/93                0               0

94-5082   Cornell
          College        11/01/93                0               0

94-5083   Northmont City
          School
          District       07/14/93                0               0

94-5084   Westinghouse
          Electric
          Corporation
          Science &
          Technology
          Center         11/01/93                0               0

94-5085   University of
          Notre Dame     11/01/93                0               0

94-5086   New Mexico
          State
          University     11/01/93                0               0

94-5087   Computer Sciences
          Corporation    11/01/93                0               0

94-5088   Atom Sciences,
          Inc.           11/01/93                0               0

94-5089   Smithsonian
          Institution    11/03/93                0               0

94-5090   Computer Sciences
          Corporation    11/03/93                0               0

94-5091   Computer Sciences
          Corporation    11/03/93                0               0

94-5092   Computer Sciences
          Corporation    11/03/93                0               0

94-5093   Materials Research
          Society        11/03/93                0               0

94-5094   General Electric
          Company
          Corporate
          R & D Center   11/03/93                0               0

94-5095   Bend Research,
          Inc.           11/03/93                0               0

94-5096   Materials and
          Electrochemical
          Research
          Corporation    11/03/93                0               0

94-5097   Southwestern
          University     11/03/93                0               0

94-5098   University of
          Rhode Island   11/03/93                0               0

94-5099   Bishop
          Museum         11/03/93           15,310          15,310

94-5100   State of
          Tennessee      11/03/93                0               0

94-5101   City of
          Boston         11/04/93                0               0

94-5102   Commonwealth of
          Virginia
          ('92)          11/04/93                0               0

94-5103   Commonwealth of
          Virginia
          ('91)          11/04/93                0               0

94-5104   Woods Hole
          Oceanographic
          Institution    11/04/93                0               0

94-5105   Woods Hole
          Oceanographic
          Institution    11/04/93                0               0

94-5106   Charles Stark
          Draper Laboratory,
          Inc.           11/04/93                0               0

94-5107   Charles Stark
          Draper Laboratory,
          Inc.           11/04/93                0               0

94-5108   Charles Stark
          Draper Laboratory,
          Inc.           11/04/93                0               0

94-5109   National
          Urban League   11/04/93                0               0

94-5110   Saint Mary's
          College        11/04/93                0               0

94-5111   Cuyahoga
          Community
          College        11/04/93                0               0

94-5112   University of
          Notre Dame     11/04/93                0               0

94-5113   New Mexico
          State
          University     11/04/93                0               0

94-5114   New Mexico
          State
          University     11/04/93                0               0

94-5115   New Mexico Institute
          of Mining and
          Technology     11/04/93                0               0

94-5116   New Mexico Institute
          of Mining and
          Technology     11/04/93                0               0

94-5117   New Mexico
          State
          University     11/04/93                0               0

94-5118   Institute for
          Technology
          Development    11/04/93                0               0

94-5119   Institute for
          Technology
          Development    11/04/93                0               0

94-5120   Institute for
          Technology
          Development    11/04/93                0               0

94-5121   Institute for
          Technology
          Development    11/04/93                0               0

94-5122   Ohio Wesleyan
          University     11/04/93                0               0

94-5123   Earlham
          College        11/04/93                0               0

94-5124   Brigham & Women's
          Hospital,
          Inc.           11/04/93                0               0

94-5125   Associated
          Colleges
          of the
          Midwest        11/04/93                0               0

94-5126   Francis Marion
          College        11/04/93                0               0

94-5127   Florida Institute
          of Technology  11/04/93                0               0

94-5128   Coe College    11/04/93                0               0

94-5129   State of
          South Dakota   11/04/93                0               0

94-5130   Smithsonian
          Institution    11/04/93                0               0

94-5131   Smithsonian
          Institution    11/04/93                0               0

94-5132   Woods Hole
          Research
          Center         11/04/93                0               0

94-5133   Southern Growth
          Policies
          Board          11/04/93                0               0

94-5134   University
          of Hawaii      11/04/93                0               0

94-5135   Massachusetts
          Institute
          of Technology  11/04/93                0               0

94-5136   Massachusetts
          Institute
          of Technology  11/04/93                0               0

94-5137   Massachusetts
          Institute
          of Technology  11/04/93                0               0

94-5138   Massachusetts
          Institute
          of Technology  11/04/93                0               0

94-5139   General Electric
          Research &
          Development
          Center         11/04/93                0               0

94-5140   Kestrel
          Institute      11/04/93            6,500           6,500

94-5141   Kestrel
          Institute      11/04/93            8,493           8,493

94-5142   Kestrel
          Institute      11/04/93              577             577

94-5143   Grand Valley
          State
          University     11/04/93                0               0

94-5144   Computer Sciences
          Corporation    11/04/93                0               0

94-5145   Bank Street College
          of Education   11/04/93                0               0

94-5146   College of Notre
          Dame of
          Maryland       11/05/93            2,172           2,172

94-5147   University
          of Vermont     11/05/93                0               0

94-5148   Reed College   11/05/93                0               0

94-5149   University of
          San Diego      11/08/93                0               0

94-5150   Saint Michael's
          College        11/10/93                0               0

94-5151   Elizabethtown
          College        11/08/93            6,813           6,813

94-5152   College of the
          Holy Cross     11/08/93                0               0

94-5153   Claremont
          University
          Center         11/08/93                0               0

94-5154   Spelman
          College        11/08/93                0               0

94-5155   University of the
          Pacific        11/08/93                0               0

94-5156   Palm Beach
          Community
          College        11/08/93                0               0

94-5157   American
          Psychological
          Association    11/08/93                0               0

94-5158   Massachusetts
          Biotechnology
          Research Institute
          (MBRI)         11/08/93                0               0

94-5159   Pomona
          College        11/08/93                0               0

94-5160   College of
          St. Thomas     11/08/93                0               0

94-5161   University
          System of
          New Hampshire  11/08/93                0               0

94-5162   Monmouth
          College        11/08/93                0               0

94-5163   Northwestern
          University     11/10/93                0               0

94-5164   University of
          Puerto Rico    11/10/93                0               0

94-5165   Clarkson
          University     11/10/93                0               0

94-5166   Kenyon
          College        11/10/93                0               0

94-5167   Haverford
          College        11/10/93                0               0

94-5168   The Computer
          Museum, Inc.   11/10/93                0               0

94-5169   American
          Society for
          Engineering
          Education      11/10/93                0               0

94-5170   Westmont
          College        11/10/93                0               0

94-5171   Harvey Mudd
          College        11/10/93                0               0

94-5172   Illinois
          Benedictine
          College        11/10/93                0               0

94-5173   University of
          Arkansas       11/12/93                0               0

94-5174   Barnard
          College        11/12/93            3,400               0

94-5175   Shriver Center
          for Mental
          Retardation    11/12/93                0               0

94-5176   University of
          Southern
          Mississippi    11/12/93                0               0

94-5177   Wellesley
          College        11/12/93                0               0

94-5178   Manhattan
          College        11/12/93                0               0

94-5179   Meharry Medical
          College        11/12/93                0               0

94-5180   Wayne State
          University     11/12/93                0               0

94-5181   Pitzer
          College        11/12/93                0               0

94-5182   Ohio State
          University     11/12/93                0               0

94-5183   Messiah
          College        11/12/93                0               0

94-5184   Associated
          Collegiate
          Schools of
          Architecture   11/12/93                0               0

94-5185   Stanford
          University     11/12/93                0               0

94-5186   Stanford
          University     11/12/93                0               0

94-5187   Stanford
          University     11/12/93                0               0

94-5188   Tufts
          University     11/12/93                0               0

94-5189   State
          of Georgia     11/12/93                0               0

94-5190   Clark
          University     11/15/93                0               0

94-5191   Moravian
          College        11/15/93                0               0

94-5192   University of
          Missouri-
          Columbia       11/15/93                0               0

94-5193   Pennsylvania
          State
          University     11/15/93            2,278               0

94-5194   Catholic
          University
          of America     11/15/93                0               0

94-5195   Franklin &
          Marshall
          College        11/15/93                0               0

94-5196   Babson
          College        11/15/93                0               0

94-5197   Westminister
          College        11/15/93                0               0

94-5198   Oakland
          University     11/15/93                0               0

94-5199   Christian
          Brothers
          University     11/15/93                0               0

94-5200   Amherst
          College        11/15/93                0               0

94-5201   Medical
          College of
          Pennsylvania   11/15/93                0               0

94-5202   Milwaukee
          Public
          Museum         11/15/93                0               0

94-5203   Mercer
          University     11/15/93                0               0

94-5204   Santa Clara
          University     11/15/93                0               0

94-5205   New School
          for Social
          Research       11/15/93                0               0

94-5206   Saint Vincent
          College        11/15/93                0               0

94-5207   Randolph-Macon
          College        11/15/93                0               0

94-5208   Colby
          College        11/15/93            5,067           5,067

94-5209   Vermont State
          Colleges       11/19/93                0               0

94-5210   Vermont State
          Colleges       11/19/93                0               0

94-5211   Case Western
          Reserve        11/29/93                0               0

94-5212   University
          of Puget
          Sound          11/29/93                0               0

94-5213   University
          of Puget
          Sound          11/29/93                0               0

94-5214   Northwest
          Community
          College        11/29/93                0               0

94-5215   Ohio
          Northern
          University     11/29/93                0               0

94-5216   Moravian
          College        11/29/93                0               0

94-5217   University of
          Health
          Sciences/Chicago
          Medical
          School         11/29/93                0               0

94-5218   Curry
          College        11/29/93                0               0

94-5219   Fox Chase
          Cancer
          Center         11/29/93                0               0

94-5220   Furman
          University     11/29/93                0               0

94-5221   Northwestern
          University     11/29/93                0               0

94-5222   Fred Hutchinson
          Cancer Research
          Center         11/29/93                0               0

94-5223   Hampden-Sydney
          College        11/29/93                0               0

94-5224   Incarnate Word
          College        11/29/93                0               0

94-5225   University
          of Alabama -
          Huntsville     11/29/93                0               0

94-5226   University of
          Health
          Sciences/Chicago
          Medical
          School         11/29/93                0               0

94-5227   University of
          Alabama        11/29/93                0               0

94-5228   Idaho State
          University     11/29/93                0               0

94-5229   Western New
          England
          College        11/29/93                0               0

94-5230   Gallaudet
          University     11/29/93                0               0

94-5231   Foundation
          for Blood
          Research       11/29/93                0               0

94-5232   Research
          Foundation
          for Mental
          Hygiene        11/29/93                0               0

94-5233   Merrimack
          College        11/29/93                0               0

94-5234   Morehouse
          School of
          Medicine       11/29/93            5,715           5,715

94-5235   Southwestern
          University     11/29/93                0               0

94-5236   Suffolk
          University     11/29/93                0               0

94-5237   Texas
          Christian
          University     11/29/93                0               0

94-5238   Marquette
          University     11/29/93                0               0

94-5239   Southern
          Methodist
          University     11/29/93                0               0

94-5240   Tulane
          University     11/29/93                0               0

94-5241   Tougaloo
          College        11/29/93                0               0

94-5242   Broome
          Community
          College        11/29/93                0               0

94-5243   Fairchild
          Tropical
          Garden         11/29/93                0               0

94-5244   California State
          University/
          Sacramento
          Foundation     11/29/93                0               0

94-5245   San Jose State
          University
          Foundation     11/29/93                0               0

94-5246   Council of
          Chief State
          School
          Officers       11/30/93                0               0

94-5247   Cooper
          Union          11/30/93                0               0

94-5248   Wittenberg
          University     11/30/93                0               0

94-5249   Pepperdine
          University     11/30/93                0               0

94-5250   Boyce Thompson
          Institute for
          Plant Research 11/30/93                0               0

94-5251   Trenton State
          College        11/30/93                0               0

94-5252   Haverford
          College        11/30/93                0               0

94-5253   Foundation
          for Blood
          Research       11/30/93                0               0

94-5254   Seton Hall
          College        11/30/93                0               0

94-5255   Vanderbilt
          University     11/30/93                0               0

94-5256   American
          Society of
          Civil
          Engineers      11/30/93                0               0

94-5257   Beckman Research
          Institute of
          the City
          of Hope        11/30/93                0               0

94-5258   San Francisco
          State University
          Foundation     11/30/93                0               0

94-5259   Eastern
          Michigan
          University     11/30/93                0               0

94-5260   California State
          University/
          Long Beach
          Foundation     11/30/93                0               0

94-5261   Metropolitan
          Museum
          of Art         11/30/93                0               0

94-5262   California
          Polytechnic
          State University
          Foundation     11/30/93                0               0


94-5263   Wabash
          College        11/30/93                0               0

94-5264   Rochester
          Institute of
          Technology     11/30/93                0               0

94-5265   Central
          Institute
          for the Deaf   11/30/93                0               0

94-5266   Wistar
          Institute      11/30/93                0               0

94-5267   Monell Chemical
          Senses Center  11/30/93                0               0

94-5268   Oklahoma
          Medical
          Research
          Foundation     11/30/93                0               0

94-5269   Embry Riddle
          Aeronautical
          University     11/30/93                0               0

94-5270   Hansen
          Planetarium    11/30/93                0               0

94-5271   State of
          Kansas         11/30/93                0               0

94-5272   Health Research,
          Inc.           11/30/93                0               0

94-5273   Educational
          Service District
          No. 112        11/30/93                0               0

94-5274   Miami-Dade
          Community
          College        11/30/93                0               0

94-5275   University of
          Alabama -
          Birmingham     11/30/93                0               0

94-5276   American
          Association
          of State
          Colleges and
          Universities   11/30/93                0               0

94-5277   Health Research,
          Inc.           11/30/93                0               0

94-5278   Sonoma State
          University
          Academic
          Foundation     11/30/93                0               0

94-5279   Bryn Mawr
          College        12/01/93                0               0

94-5280   Gannon
          University     12/01/93                0               0

94-5281   Hamline
          University     12/01/93                0               0

94-5282   Loyola College
          in Maryland    12/01/93                0               0

94-5283   Livingston
          University     12/01/93                0               0

94-5284   Pittsburgh Board
          of Public
          Education      12/01/93                0               0

94-5285   St. Mary's
          University -
          San Antonio    12/01/93                0               0

94-5286   Medical
          Foundation of
          Buffalo, Inc.  12/01/93                0               0

94-5287   Humboldt State
          University
          Foundation     12/01/93                0               0

94-5288   New York
          University
          Medical
          Center         12/01/93                0               0

94-5289   Palm Beach
          Community
          College        12/01/93                0               0

94-5290   Assumption
          College        12/01/93                0               0

94-5291   Fordham
          University     12/01/93                0               0

94-5292   Henry M. Jackson
          Foundation for
          the Advancement
          of Military
          Medicine       12/01/93                0               0

94-5293   Roanoke
          College        12/01/93                0               0

94-5294   Montefiore
          Medical
          Center         12/01/93                0               0

94-5295   Michigan State
          University     12/01/93                0               0

94-5296   New York
          Academy of
          Sciences       12/01/93                0               0

94-5297   Oak Ridge
          Associated
          Universities   12/01/93                0               0

94-5298   Ithaca
          College        12/01/93              307             307

94-5299   Education
          Development
          Center         12/02/93                0               0

94-5300   Eastern
          New Mexico
          University     12/02/93                0               0

94-5301   Randolph-Macon
          Woman's
          College        12/02/93                0               0

94-5302   Pennsylvania
          State System
          of Higher
          Education      12/02/93                0               0

94-5303   Worcester
          Polytechnic
          Institute      12/02/93                0               0

94-5304   Mississippi
          State
          University     12/02/93                0               0

94-5305   Baylor College
          of Medicine    12/02/93                0               0


94-5306   Union
          College        12/02/93                0               0

94-5307   Mercyhurst
          College        12/02/93                0               0

94-5308   Council
          Chief State
          School Office  12/02/93                0               0

94-5309   Wheaton
          College        12/02/93                0               0

94-5310   Council for
          Retarded Citizens
          of Jefferson
          County (KY)    12/02/93                0               0

94-5311   Medical
          College of
          Wisconsin      12/02/93                0               0

94-5312   National
          Biomedical
          Research
          Foundation     12/02/93                0               0

94-5313   Molecular
          Research
          Institute      12/02/93                0               0

94-5314   Haskins
          Laboratories
          Inc.           12/02/93                0               0

94-5315   Maricopa
          Community
          Colleges
          (AZ)           12/02/93                0               0

94-5316   Mount Holyoke
          College        12/02/93                0               0

94-5317   University of
          New Mexico     12/02/93            6,392           6,392

94-5318   Creighton
          University     12/02/93                0               0

94-5319   Wistar
          Institute      12/02/93                0               0

94-5320   San Diego
          State University
          Foundation     12/02/93                0               0

94-5321   Carnegie Mellon
          University &
          Software
          Engineering
          Institute      12/03/93                0               0

94-5322   Delta State
          University     12/03/93                0               0

94-5323   Illinois
          State
          Museum         12/03/93                0               0

94-5324   American Institute
          for Research
          in the
          Behavioral
          Sciences       12/03/93                0               0

94-5325   Kean College
          of New Jersey  12/03/93                0               0

94-5326   Allegheny
          College        12/03/93                0               0

94-5327   Long Island
          University     12/03/93                0               0

94-5328   Davidson
          College        12/03/93           10,000          10,000

94-5329   California
          State
          University
          Hayward
          Foundation     12/03/93                0               0

94-5330   California
          Institute of
          Technology     12/03/93                0               0

94-5331   University of
          Notre Dame     12/03/93            1,702           1,702

94-5332   Federation of
          American Societies
          for Experimental
          Biology        12/03/93                0               0

94-5333   Hillsborough
          County Public
          Schools (FL)   12/03/93                0               0

94-5334   Kent State
          University     12/03/93              108             108

94-5335   Development
          Studies
          Center         12/03/93                0               0

94-5336   Keystone
          Center for
          Continuing
          Education      12/03/93                0               0

94-5337   Connecticut
          College        12/03/93                0               0

94-5338   University of
          Mississippi
          Medical
          Center         12/03/93                0               0

94-5339   University
          of Detroit     12/03/93                0               0

94-5340   Wheelock
          College        12/03/93                0               0

94-5341   Central
          Michigan
          University     12/03/93                0               0

94-5342   Smith-Kettlewell
          Eye Research
          Institute      12/03/93                0               0

94-5343   Sloan-Kettering
          Institute for
          Cancer
          Research       12/03/93                0               0

94-5344   Siena
          College        12/03/93                0               0

94-5345   Santa Fe
          Institute      12/03/93                0               0

94-5346   Auburn
          University     12/03/93                0               0

94-5347   Rhode Island
          Hospital       12/03/93                0               0

94-5348   Owens Technical
          College        12/03/93                0               0

94-5349   Illinois State
          University     12/03/93                0               0

94-5350   Albany State
          College        12/03/93                0               0

94-5351   Lesley
          College        12/03/93                0               0

94-5352   Woods Hole
          Oceanographic
          Institution    12/03/93                0               0

94-5353   Butler
          University     12/03/93                0               0

94-5354   Hampshire
          College        12/03/93                0               0

94-5355   Evangel
          College        12/03/93                0               0

94-5356   Florence-Darlington
          Technical
          College        03/15/94                0               0

94-5357   National
          Biomedical
          Research
          Foundation     03/23/94                0               0

94-5358   American Institute
          of Chemical
          Engineering    03/15/94                0               0

94-5359   American Institute
          of Biological
          Sciences       03/15/94                0               0

94-5360   American
          Association
          of State
          Colleges and
          Universities   03/15/94                0               0




OVERSIGHT




                         Date Report    Questioned     Unsupported
Number    Grantee             Issued         Costs           Costs


93-3230   Conflicts-of-Interests
          Review:  Intergovernmental
          Personnel Act
          Assignees Entering
          and Leaving,
          August 1993         01/26/94            0              0


93-3231   Conflicts-of-Interests
          Reviews:  Volunteers
          Entering and Leaving,
          September 1993      10/08/93            0              0


93-3232   Conflicts-of-Interests
          Reviews:  NSF Staff
          and Rotators
          Entering and Leaving,
          September 1993      02/01/94            0              0

93-3233   Conflicts-of-Interests
          Intergovernmental
          Personnel Act
          Assignees Entering
          and Leaving,
          September 1993      02/04/94            0              0

93-3234   Conflicts-of-Interests
          Reviews:  Volunteers
          Entering and Leaving,
          October 1993        11/15/93            0              0

93-3235   Conflicts-of-Interests
          Reviews:  NSF Staff
          and Rotators
          Entering and Leaving,
          October 1993        01/14/94            0              0

93-3236   Conflicts-of-Interests
          Reviews:  Intergovernmental
          Personnel Act
          Assignees Entering
          and Leaving, October -
          November 1993       02/16/94            0              0

93-3237   Conflicts-of-Interests
          Reviews:  Volunteers
          Entering and Leaving,
          November 1993       01/03/94            0              0

93-3238   Conflicts-of-Interests
          Reviews:  NSF Staff
          and Rotators Entering
          and Leaving,
          November 1993       01/28/94            0              0

93-3239   Conflicts-of-Interests
          Reviews:  Volunteers
          Entering and Leaving,
          December 1993       02/01/94            0              0

93-3240   Conflicts-of-Interests
          Reviews:  NSF Staff
          and Rotators Entering
          and Leaving,
          December 1993       02/16/94            0              0

93-3241   Conflicts-of-Interests
          Intergovernmental
          Personnel Act Assignees
          Entering and Leaving,
          December 1993       02/01/94            0              0

94-3200   Committee of Visitors:
          Status of Reviews 4th
          Quarter, FY 1993    01/20/94            0              0

94-3201   Committee of Visitors:
          Status of Reviews 1st
          Quarter, FY 1994    03/18/94            0              0

94-3202   Conflicts-of-Interests
          Reviews:  Volunteers
          Entering and Leaving,
          January 1994        02/14/94            0              0

94-3203   Conflicts-of-Interests
          Reviews:  NSF Staff
          and Rotators Entering
          and Leaving,
          January 1994        02/16/94            0              0

94-3204   Conflicts-of-Interests
          Intergovernmental
          Personnel Act Assignees
          Entering and Leaving,
          January 1994        03/10/94            0              0

94-3205   Conflicts-of-Interests
          Reviews:  Volunteers
          Entering and Leaving,
          February 1994       03/02/94            0              0

94-3206   Conflicts-of-Interests
          Reviews:  NSF Staff
          and Rotators
          Entering and
          Leaving,
          February 1994       03/09/94            0              0

94-3207   Conflicts-of-Interests
          Reviews:  Intergovernmental
          Personnel Act
          Assignees Entering
          and Leaving,
          February 1994       03/08/94            0              0

94-3208   Oversight Review:
          Proposal Actions:
          Director for
          Education & Human
          Resources 4th Quarter
          FY 1993 and 1st
          Quarter FY 1994     03/31/94            0              0




Statistical Information Required
by the Inspector General Act
of 1978, as Amended



Table I.  Audit Reports Issued With Questioned Costs


                                        Questioned     Unsupported
                              Number         Costs           Costs


A.   For which no management
     decisions has been make
     by the commencement of
     the reporting period.        37     3,060,957        1,619,252

B.   Which were issued during
     the reporting period.        43     1,518,928          484,289

C.   Adjustments to questioned
     costs resulting from
     resolution activities.                 41,266               0

Subtotals of (A+B+C)               80    4,621,151       2,103,541

D.   For which a management
     decision was made during
     the reporting period.         37    1,348,864         550,872


          (i) dollar value
          of disallowed costs       0      268,199             N/A

          (ii) dollar value
          of cost not disallowed    0    1,080,665             N/A

E.   For which no management
     decision has been made by the
     end of the reporting period.  43    3,272,287       1,552,669

Report for which no management
decision was made within
6 months of issuance.               9    1,811,234       1,086,288





Inspector
General
Reports


*****************************************************************

Funds to be Put to Better Use:  Funds the OIG has identified in
an audit recommendation that could be used more efficiently by
reducing outlays, deobligating program or operational funds,
avoiding unnecessary expenditures, or taking other efficiency
measures.

*****************************************************************


Table II.  Audit Reports Issued With Recommendations For Better Use
of Funds


                                             Number         Dollar
                                                             Value

A.   For which no management decision
     had been made by the commencement
     of the reporting period.                     0              0

B.   Which were issued during the
     reporting period.                            2      1,363,000

Subtotals of A & B                                2      1,363,000

C.   For which a management decision
     was made during the reporting
     period.

          (i) dollar value of
          recommendations that were
          agreed to by management                 2      1,363,000

               based on proposed
               management action                  2      1,363,000

               based on proposed
               legislative action                 0              0

          (ii)  dollar value of
          recommendations that were
          agreed to by management                 0              0

D.   For which no management decision
     has been made by the end of the
     reporting period.                            0              0

Report for which no management
decision was made within
6 months of issuance.                             0              0





ADDITIONAL PERFORMANCE MEASURE


As required by the Inspector General Act of 1978, we provide tables
in each Semiannual Report to Congress that give statistical
information on work conducted by our audit and investigation units.

Tables that provide statistics concerning these required
performance measures are on pages 23, 71, and 72.  Vice President
Gore's National Performance Review, the General Accounting Office,
and OMB have suggested that Office of Inspector General develop
additional performance measures that provide information about our
activities.  As a result, we developed an additional performance
measure to better explain the work of our office.

OIG staff members regularly conduct reviews of internal NSF
operations.  These reviews often result in systemic recommendations
that are designed to improve the economy and efficiency of NSF
operations.

We routinely track these systemic recommendations and report to
NSF's Director and Deputy Director quarterly about the status of
our recommendations.  The following table provides statistical
information about the status of all systemic recommendations that
involve internal operations of the Foundation.  The statistics
demonstrate that NSF management has agreed to resolve our systemic
recommendations in a reasonable manner.



Status of Systemic Recommendations That
Involve Internal NSF Management


Open Recommendations

Recommendations Open at the
Beginning of the Reporting Period                           49

New Recommendations Made During Reporting Period             9

Total Recommendations to be Addressed                       58


Management Resolution of Recommendations1


Recommendations Awaiting Management Resolution              14

Recommendations Resolved by Management                      44

     Management Agrees to Take Reasonable Action            44

     Management Decides No Action is Required                0



Final Action on OIG Recommendations2


Final Action Completed                                      22

Recommendations Open at End of Period                       36


[Footnote 1] "Management Resolution" occurs when management
completes its evaluation of an OIG recommendation and issues its
official response identifying the specific action that will be
implemented in response to the recommendation.

[Footnote 2] "Final Action" occurs when management has completed
all actions it has decided are appropriate to address an OIG
recommendation.


Aging of Open Recommendations


Awaiting Management Resolution:


               0 through 6 Months                            9

               7 through 12 Months                           5

               More than 12 Months                           0


Awaiting Final Action After Resolution:


               0 through 6 Months                            1

               7 through 12 Months                           6

               13 through 18 Months                          8

               19 through 24 Months                          2

               More than 24 Months                           5



Recommendations Where Management Decides No Action is Required

None to report during this period.


Recommendations Awaiting Management Resolution for More Than
12 Months

None to report during this period.


Recommendations Awaiting Final Action for More Than 24 Months


In Report No. OAO-15-04-88, "Review of the NSF Computer Security
Program," April 15, 1988, we recommended that a risk analysis for
computer operations be performed and a contingency plan consistent
with published guidelines be developed.  One proposal for preparing
a contingency plan was received, but the cost was greater than
anticipated.  Therefore, another proposal was requested.  In
addition, an alternate processing site is being reviewed.
Although the delays in implementation were excessive, no losses
have resulted.  We consider the current action to be reasonable.

In Report No. OAO-19-06-88, "Review of Passwords for the
Electronic Timecard System," June 15, 1988, we recommended that
encrypted passwords be developed for the electronic timecard
system.  Management deferred implementation of this recommendation
because a new payroll/personnel system that would include
this feature was already being planned.  However, the new system
was delayed because of constraints.  We consider management's
action to be reasonable.

In Report No. OIG-02-89, "Followup Review of NSF Time and
Attendance Reporting System," March 6, 1989, we recommended that
daily employee flexitime records be automated and interfaced with
the electronic timecard system.  The records were automated, but
the system interface was postponed and scheduled as part of a new
payroll/personnel system.  We are concerned about the delay in
implementing this interface (see detailed information on page 14 of
this report).  We estimate that NSF will save at least $900,000
and put these funds to better use once the planned interface system
is implemented.

In Report No. OIG 91-2104, "Review of NSF's Vouchers Payable
System," June 28, 1991, we recommended that a quality control
system be established to assess performance of the voucher payable
system.  Interim manual procedures were developed and plans were
made to develop and implement automated quality control mechanisms.

We consider management's action to be reasonable.

In Report No. OIG 91-2104,"Review of NSF's Vouchers Payable
System," we also recommended that the financial office not use the
first-in-first out system to charge large dollar, multi-year
contracts and match obligations with expenses.  NSF is conducting
reviews to determine which contracts meet these criteria and how to
properly account for these contracts.  We consider management's
action to be reasonable.




Prepared  by:

Office of Inspector General
National Science Foundation

For additional copies,
write:

Office of Inspector General
4201 Wilson Boulevard
Arlington, VA  22230

For additional information,
call:

Audit
(703) 306-2001

Investigations
(703) 306-2002

Oversight Activities
(including misconduct in science
and inspections)
(703) 306-2006

Legal Issues
(703) 306-2100

Electronic Mail Hotline:
oig@nsf.gov







